App. 1
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DESIRE, LLC, a California
limited liability company,
Plaintiff-Appellee,
v.
MANNA TEXTILES, INC., a New
York corporation; A.B.N., Inc.,
DBA Wearever, Inc., a New
York corporation; TOP FASHION
OF N.Y., INC., a New York
corporation; Pride & Joys, Inc.,
a New York corporation; 618
MAIN CLOTHING CORP.,
DBA 10 Spot, DBA Madgra,
a New Jersey corporation,

No. 17-56641
D.C. No.
2:16-cv-04295DMG-JEM
OPINION

Defendants-Appellants.
Appeal from the United States District Court
for the Central District of California
Dolly M. Gee, District Judge, Presiding
Argued and Submitted March 5, 2019
Pasadena, California
Filed February 2, 2021

App. 2
Before: Kim McLane Wardlaw and Mark J. Bennett,
Circuit Judges, and William K. Sessions III,*
District Judge.
Opinion by Judge Bennett;
Partial Concurrence and
Partial Dissent by Judge Wardlaw
COUNSEL
Aaron L. Renfro (argued), Samuel G. Brooks, Melinda
Evans, and Scott P. Shaw, Call & Jensen APC, Newport
Beach, California, for Defendants-Appellants.
Stephen M. Doniger (argued) and Frank Gregory Casella, Doniger Burroughs, Venice, California, for Plaintiff-Appellee.

OPINION
BENNETT, Circuit Judge:
Desire, LLC (“Desire”) sued Manna Textiles, Inc.
(“Manna”), A.B.N., Inc. (“ABN”), Top Fashion of N.Y.,
Inc. (“Top Fashion”), Pride & Joys, Inc. (“Pride & Joys”),
and 618 Main Clothing Corp. (“618 Main”), as well as
others who are no longer parties, for copyright infringement. The district court held, on summary judgment, that Desire owned a valid copyright in the fabric
design that was the subject of the action (the “Subject
Design”), and that the Subject Design was entitled to
* The Honorable William K. Sessions III, United States District Judge for the District of Vermont, sitting by designation.

App. 3
broad copyright protection. The jury returned a verdict
for Desire, finding that Manna, ABN, and Top Fashion
willfully infringed the Subject Design, and that Pride
& Joys and 618 Main innocently infringed the Subject
Design. Desire elected to claim statutory damages in
lieu of actual damages, and the district court, based on
a pretrial ruling on the question, assessed five statutory damages awards totaling $480,000 (with that
entire amount assessed jointly and severally against
Manna).
On appeal, Manna, ABN, and Top Fashion challenge the district court’s orders on summary judgment
as well as its holding that Desire is entitled to receive
multiple awards of statutory damages. Although we
hold that the district court did not err in granting summary judgment for Desire on the validity of its copyright and the scope of the Subject Design’s copyright
protection, we disagree with the district court’s holding
that Desire is entitled to multiple statutory damages
awards. We therefore affirm in part, reverse in part,
vacate the judgment awarding Desire multiple awards
of statutory damages, and remand to the district court
for further proceedings.
I.

FACTUAL BACKGROUND AND PROCEEDINGS BELOW

Desire is a Los Angeles-based fabric supplier. Desire purchased the Subject Design, which is a twodimensional floral print textile design identified as
“CC3460,” and all rights to the Subject Design from

App. 4
Cake Studios, Inc. (“Cake”) for $475. Desire registered
the Subject Design with the United States Copyright
Office on June 26, 2015.
A Cake designer “created [the Subject Design] using their own imagery” in Adobe Photoshop. “CC3460
is an original pattern created in Adobe Photoshop using an original flower image created by [a Cake] designer which was then imported into Photoshop so that
the Photoshop editing tools could be used to adjust,
stylize and arrange the floral elements into the original artwork that became CC3460. There is no preexisting artwork from Photoshop in design CC3460.”
On October 15, 2015, Top Fashion, a women’s
clothing manufacturer, purchased four yards of fabric
bearing the Subject Design from Desire. Top Fashion
used this fabric to secure a garment order from Ashley
Stewart, Inc. (“Ashley Stewart”), a women’s clothing retailer. However, Top Fashion and Desire had a dispute
over the fabric price. Top Fashion then showed the Subject Design to Manna, a fabric supplier. Manna gave
the Subject Design to its independent designer, Matty
Mancuso, who in turn sent the design to Longwell Textile (“Longwell”) in China with instructions to modify
it. Upon receiving the modified design from Longwell,
Mancuso replied, “After looking at this—don’t know if
you change [sic] it enough?” A Longwell representative
responded: “I changed 30-40% on original, pls kindly
approve. . . .” Manna registered the design (the “Accused Design”) with the United States Copyright Office
on December 1, 2015.

App. 5
Between October 2015 and May 2016, Manna
sold fabric bearing the Accused Design to ABN, Top
Fashion, and Pride & Joys (the “Manufacturer Defendants”), all women’s clothing manufacturers. These
manufacturers created garments from that fabric and
sold them to women’s clothing retailers 618 Main, Burlington Coat Factory Direct Corp. (“Burlington”), and
Ashley Stewart (the “Retail Defendants”).
Thus, as alleged, Manna infringed Desire’s copyright by selling fabric bearing the Accused Design to
the Manufacturer Defendants. The Manufacturer Defendants then each allegedly committed a separate act
of infringement in their sales to the individual Retail
Defendants, who in turn allegedly committed acts of
infringement in their sales to consumers. However, Desire does not allege that the Manufacturer Defendants
infringed in concert, nor that the Retail Defendants
acted in concert to infringe Desire’s copyright.
Below is a chart showing the three “chains” of infringement that Desire alleged here.

App. 6
In June 2016, Desire sued Manna, ABN, Top Fashion, Burlington, and Ashley Stewart, and later added
Pride & Joys and 618 Main, alleging that all had willfully infringed Desire’s copyright by manufacturing
and/or selling fabric and garments bearing the Accused Design.
All parties moved for summary judgment. The district court partly granted Desire’s motion and denied
defendants’ motion. The district court concluded that
there were no triable issues of fact as to (1) Desire’s
ownership of the Subject Design, rejecting defendants’
arguments that the design was not original, or (2)
whether Manna, ABN, and Top Fashion had access to
the Subject Design. The district court also concluded
that the Subject Design was entitled to broad copyright
protection. The court identified triable issues of fact as
to (1) whether the Accused Design was substantially
similar to the Subject Design; and (2) whether defendants willfully infringed the Subject Design. The court
also held that if Desire prevailed, it would be potentially entitled to a maximum of seven awards of statutory damages with joint and several liability imposed
as follows:
(1) Against Manna individually, for copying the
Subject Design and distributing fabric bearing the Accused Design to the Manufacturer
Defendants.
(2) Against Manna and Top Fashion jointly and
severally, for Top Fashion’s sale of infringing
garments to Ashley Stewart.

App. 7
(3) Against Manna, Top Fashion, and Ashley
Stewart, jointly and severally, for Ashley
Stewart’s display and sale of infringing garments to consumers.
(4) Against Manna and ABN, jointly and severally, for ABN’s sale of infringing garments to
Burlington.
(5) Against Manna, ABN, and Burlington, jointly
and severally, for Burlington’s display and
sale of infringing garments to consumers.
(6) Against Manna and Pride & Joys, jointly and
severally, for Pride & Joys’s sale of infringing
garments to 618 Main.
(7) Against Manna, Pride & Joys, and 618 Main,
jointly and severally, for 618 Main’s display
and sale of infringing garments to consumers.
The jury returned a verdict in favor of Desire, finding that Manna, ABN, and Top Fashion willfully infringed the Subject Design, and that Pride & Joys
and 618 Main innocently infringed the Subject Design.1 The jury awarded statutory damages to Desire: $150,000 against Manna, $150,000 against ABN,
$150,000 against Top Fashion, $20,000 against Pride
& Joys, and $10,000 against 618 Main. Although the
jury’s verdict form did not specify joint and several liability for any of its damages awards, the judgment
read alongside the district court’s pretrial order on the
parties’ potential liability, establishes the parties’ joint
and several liability for each award: $150,000 against
1

Burlington and Ashley Stewart settled before trial.

App. 8
Manna alone; $150,000 against ABN (jointly and severally with Manna); $150,000 against Top Fashion
(jointly and severally with Manna); $20,000 against
Pride & Joys (jointly and severally with Manna); and
$10,000 against 618 Main (jointly and severally with
Pride & Joys and Manna). The parties do not dispute
this.
Manna, ABN, Top Fashion, Pride & Joys, and 618
Main (“Appellants”) timely appealed.2
II.

DISCUSSION
A. Standard of Review

“We review the district court’s grant of summary
judgment de novo.” Goodman v. Staples The Office Superstore, LLC, 644 F.3d 817, 822 (9th Cir. 2011). We review for abuse of discretion the district court’s rulings
on motions in limine. Branch Banking & Tr. Co. v.
D.M.S.I., LLC, 871 F.3d 751, 759 (9th Cir. 2017). We review questions of statutory interpretation de novo.
2

The record reflects that 618 Main and Pride & Joys have
satisfied the judgments entered against them. Payment of a judgment does not foreclose an appeal. Milicevic v. Fletcher Jones
Imps., Ltd., 402 F.3d 912, 915 (9th Cir. 2005). An exception to that
rule exists where “there is some contemporaneous agreement not
to appeal, implicit in a compromise of the claim after judgment.”
Jones v. McDaniel, 717 F.3d 1062, 1069 (9th Cir. 2013) (quoting
Milicevic, 402 F.3d at 915). No party states that there was a contemporaneous agreement not to appeal when the parties paid the
judgments against them. 618 Main and Pride & Joys joined the
notice of appeal filed in the district court, they have not been dismissed from the appeal, and we consider them parties and subject
to our jurisdiction.

App. 9
United States v. Youssef, 547 F.3d 1090, 1093 (9th Cir.
2008) (per curiam).
B. The District Court Correctly Held that
Desire Owned a Valid Copyright.
Desire must prove its ownership of a valid copyright to establish copyright infringement. Feist
Publ’ns, Inc. v. Rural Tel. Serv. Co., Inc., 499 U.S. 340,
361 (1991). “To qualify for copyright protection, a work
must be original to the author.” Id. at 345. “Original, as
the term is used in copyright, means only that the work
was independently created by the author (as opposed
to copied from other works), and that it possesses at
least some minimal degree of creativity.” Id.; see 1 M.
Nimmer & D. Nimmer, Copyright (“Nimmer”) §§ 2.01[A],
[B] (2020). The parties do not dispute that Desire’s
copyright registration for the Subject Design “constitute[s] prima facie evidence of the validity of the copyright and of the facts stated in the certificate.” 17
U.S.C. § 410(c). To rebut the presumption of validity,
Appellants “must simply offer some evidence or proof
to dispute or deny [Desire]’s prima facie case. . . .”
United Fabrics Int’l, Inc. v. C&J Wear, Inc., 630 F.3d
1255, 1257 (9th Cir. 2011) (citations omitted).
Appellants’ challenge is based on Deborah Young’s
expert report, which concluded that “[t]he flower motif/
arrangement of Desire’s design is similar to numerous
floral motifs found in many prior art materials in the
public domain.” But Appellants misapprehend the appropriate standard. The “similarity” of one design to

App. 10
another has no bearing on whether Desire “independently created” the subject design. Feist, 499 U.S.
at 345.
Desire presented undisputed evidence that a
Cake designer “created [the Subject Design] using
their own imagery” in Adobe Photoshop, and used “no
pre-existing artwork from Photoshop.” That satisfies
the test. See id. (“Originality does not signify novelty;
a work may be original even though it closely resembles other works so long as the similarity is fortuitous, not the result of copying.”); see also Nimmer
§ 2.01[A][2].
Appellants have also failed to introduce evidence
that the Subject Design lacked the necessary “modicum of creativity” to be entitled to a valid copyright.
Feist, 499 U.S. at 346; see id. at 345 (“[T]he requisite
level of creativity is extremely low; even a slight
amount will suffice. The vast majority of works make
the grade quite easily, as they possess some creative
spark, ‘no matter how crude, humble or obvious’ it
might be.” (quoting Nimmer § 1.08[C][1])).
Thus, the district court correctly held that Desire
owned a valid copyright in the Subject Design.
C. The District Court Correctly Extended
Broad Copyright Protection to the Subject Design.
The district court held that the Subject Design
was entitled to broad copyright protection as a matter

App. 11
of law because the flowers and the arrangement of
those flowers are “stylized and not lifelike,” the Subject
Design was an original creation, and “there is ‘a wide
range of expression’ for selecting, coordinating, and arranging floral elements in stylized fabric designs.” We
agree.
To establish copyright infringement, Desire must
show that Appellants copied the “constituent elements
of the [Subject Design] that are original,” Feist, 499
U.S. at 361, which requires a showing that (1) Appellants had access to the Subject Design, which is undisputed, and (2) “the two works are substantially
similar,” L.A. Printex Indus., Inc. v. Aeropostale, Inc.,
676 F.3d 841, 846 (9th Cir. 2012), abrogated on other
grounds as recognized by Unicolors, Inc. v. H&M
Hennes & Mauritz, L.P., 959 F.3d 1194, 1198 (9th Cir.
2020). Before analyzing substantial similarity, we determine whether a copyright is entitled to “thin” or
“broad” protection. Mattel, Inc. v. MGA Entm’t, Inc., 616
F.3d 904, 913-14 (9th Cir. 2010). The scope of protection
depends on “the breadth of the possible expression” of
a work’s ideas. Id. at 913.
If there’s a wide range of expression . . . , then
copyright protection is “broad” and a work will
infringe if it’s “substantially similar” to the
copyrighted work. If there’s only a narrow
range of expression . . . , then copyright protection is “thin” and a work must be “virtually
identical” to infringe.
Id. at 913-14 (citations omitted); see also Satava v.
Lowry, 323 F.3d 805, 812 (9th Cir. 2003) (concluding

App. 12
that a glass-in-glass jellyfish sculpture was entitled to
thin protection due to the narrow range of expression).
In L.A. Printex, we held that the stylized floral pattern at issue—“a repeating pattern of bouquets of flowers and three-leaf branches”—was entitled to broad
copyright protection “[b]ecause there is ‘a wide range
of expression’ for selecting, coordinating, and arranging floral elements in stylized fabric designs. . . .” 676
F.3d at 850 (quoting Mattel, 616 F.3d at 913). “ ‘[T]here
are gazillions of ways’ to combine petals, buds, stems,
leaves, and colors in floral designs on fabric, in contrast
to the limited number of ways to, for example, ‘paint a
red bouncy ball on black canvas’ or make a lifelike
glass-in-glass jellyfish sculpture.” Id. at 850-51 (quoting Mattel, 616 F.3d at 913-14).
Under L.A. Printex, the Subject Design is entitled
to broad copyright protection. Like the floral design at
issue in L.A. Printex, the Subject Design is a stylized
floral design. The flowers are “stylized and not lifelike,”
and the Subject Design “depicts not flowers as they appear in nature but an artistic combination of floral elements that is sufficiently original to merit copyright
protection.” Id. at 850 n.4 (contrasting the stylized floral pattern at issue to the jellyfish sculptures in Satava). The Subject Design’s floral elements are subject
to a wide range of expression. And as we have already
held, Appellants failed to create a genuine issue of
material fact on the Subject Design’s originality. See
supra Part II.B. Thus, Desire’s “original selection, coordination, and arrangement” of floral elements in the

App. 13
Subject Design is entitled to broad copyright protection
as a matter of law. See L.A. Printex, 676 F.3d at 850.
Appellants argue that the scope of the Subject Design’s copyright protection was a question for the jury,
but we have squarely and repeatedly held that the district court must determine the scope of a work’s copyright protection in the first instance. See Mattel, 616
F.3d at 915 (determining the scope of copyright protection for a doll “sculpt” as a legal matter); Apple
Comput., Inc. v. Microsoft Corp., 35 F.3d 1435, 1443
(9th Cir. 1994) (“[T]he court must define the scope of
the plaintiff ’s copyright—that is, decide whether the
work is entitled to ‘broad’ or ‘thin’ protection.”).
Appellants also argue that elements of the Subject
Design that were “not original” should have been “filtered out of the analysis” for purposes of the jury’s consideration of whether the Accused Design infringed on
Desire’s copyright. But, again, Appellants failed to
raise a genuine issue of material fact on the question
of the Subject Design’s originality. Appellants assert
that their expert would have testified that the Subject Design was “essentially copied from pre-existing
works,” thus rendering the Subject Design “unoriginal.” Not so. Young’s proffer merely stated that the
Subject Design is “similar to numerous floral motifs”
found in the “public domain.” That the Subject Design may not be novel is immaterial to the question
whether it is “original.” Desire’s uncontested evidence
established originality, and the district court correctly

App. 14
afforded the Subject Design broad copyright protection.3
D. The District Court Erred in Permitting
Multiple Awards of Statutory Damages.
The district court concluded pretrial that Desire
could obtain a separate statutory damages award
based on each defendant’s infringements—seven possible awards (though two defendants settled before
trial reducing the number to five).4 The district court
also concluded, based on the summary judgment record, that “upstream infringers” could be jointly and
severally liable for the downstream infringers’ infringing conduct.5 The five statutory damages awards
3

Because we conclude that Young’s proffered testimony did
not bear on the Subject Design’s originality, we also conclude that
the district court did not abuse its discretion in excluding those
portions of Young’s testimony comparing the Subject Design to
other floral designs in the public realm.
4
The settlement, in the district court’s view, eliminated
award numbers (3) and (5) listed above in Part I.
5
The dissent, incorrectly, believes this to be a “hypothetical
finding” because, it argues, “we review final judgments, not opinions or pre-trial orders.” Dissent at p. 43 (citing Jennings v. Stephens, 574 U.S. 271, 277 (2015)). But the opinion in Jennings says
nothing about pre-trial orders, and we have repeatedly stated
that “[a]n appeal from a final judgment draws in question all earlier, non-final orders and rulings which produced the judgment.”
Litchfield v. Spielberg, 736 F.2d 1352, 1355 (9th Cir. 1984) (emphasis added). While the dissent posits that the judgment is inconsistent with the order, it does not explain the supposed
inconsistency. Further, neither party on appeal treats this order
as hypothetical or seeks the solution proposed by the dissent.
Both parties addressed the question in their briefs and requested

App. 15
against Manna, ABN, Top Fashion, 618 Main, and
Pride & Joys are at issue on appeal.6
Appellants contend first that the district court
adopted an erroneous view of joint and several liability.
that this court adjudicate the issue. Manna argued that the district court’s order “conflates the tort principle of vicarious liability
with the much broader tort principle of joint and several liability”
and asked the panel to reject the district court’s conclusions. Desire in turn noted that if this court agrees with its view (and that
of the district court) that upstream infringers should be liable for
downstream infringements, it should remand for the district
court to enter judgment consistent with this ruling. We decline to
resolve the case on an issue raised by neither party. See United
States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020) (noting
that as a general rule parties “are responsible for advancing the
facts and argument entitling them to relief ” (citation omitted)).
The district court’s conclusion that “seven statutory damages
awards are available with joint and several liability imposed consistent with this Order” is unequivocal. Once the jury found defendants liable and determined statutory damages, the awards
were no longer “theoretical” and judgment was entered, consistent with the court’s order finding defendants jointly and severally liable. Nothing in the record indicates that the district
court modified this order prior to entering judgment. Cf. City of
L.A., Harbor Div. v. Santa Monica Baykeeper, 254 F.3d 882, 885
(9th Cir. 2001) (noting that district courts may “reconsider, rescind, or modify an interlocutory order for cause” provided the
“court has jurisdiction over the case” (emphasis omitted) (citation
omitted)). Accordingly, we part ways with the dissent: the district
court imposed joint and several liability in its order, contingent
on the jury’s finding of damages, and this order was “draw[n] in
question” on appeal by the final judgment, see Litchfield, 736 F.2d
at 1355.
6
Under the district court’s allocation, Manna could be liable
for the entire $480,000, Top Fashion for $150,000, ABN for
$150,000, Pride & Joys for $30,000, and 618 Main for $10,000
(though, of course, Desire could not collect more than $480,000).

App. 16
Rather than focusing, as the district court did, on
whether individual defendants contributed to one another’s tortious acts, Appellants argue that joint and
several liability attaches when two or more defendants
contribute to the harm the plaintiff suffers, even if they
do so independently.7 Under this approach, because
all defendants contributed to Desire’s injuries (that
is, the “loss of compensation resulting from the infringement”), all are jointly and severally liable with
one another according to Appellants. And because all
defendants are (thus) jointly and severally liable, the
Copyright Act permits only one award of statutory
damages.
In the alternative, Appellants assert that, even if
the district court correctly formulated joint and several
liability, it was error to hold that the Copyright Act permits multiple awards of statutory damages when joint
and several liability is not complete. We disagree with
Appellants’ argument on joint and several liability, but
agree with their interpretation of the Copyright Act.

7

As discussed above, Pride & Joys and 618 Main, in the
same distribution chain, were jointly and severally liable with
each other for $10,000, though neither was, for example, jointly
and severally liable with Top Fashion, which was in a different
distribution chain.

App. 17
1. The district court correctly apportioned joint and several liability
among the defendants.
The district court stated, “where an upstream
defendant causes, whether directly or indirectly, a
downstream defendant’s infringement, the upstream
defendant is a joint tortfeasor in, and therefore jointly
and severally liable for, the plaintiff ’s harm caused by
the downstream defendant’s conduct.” The district
court also concluded that “where a downstream infringer’s conduct is not the legal cause of the upstream
defendant’s infringement, the downstream infringer
will not be responsible, jointly and severally, for the upstream defendant’s wrongdoing.” The district court’s
conclusions were correct.
“If the independent tortious conduct of two or
more persons is a legal cause of an indivisible injury,”
joint and several liability may apply. Restatement
(Third) of Torts: Apportionment Liab. § 17 (2000). “The
requirement is only that the independent tortious acts
‘concur’ to cause an injury that is not divisible based
on the causal contribution of the tortfeasors.” Id. § A18
cmt. b. A divisible injury is one for which “[d]amages
can be divided by causation.” Id. § 26(b). To determine
whether an injury is divisible, the factfinder must determine whether “the evidence provides a reasonable
basis” to determine “that any legally culpable conduct
of a party . . . was a legal cause of less than the entire
damages for which the plaintiff seeks recovery” and
“the amount of damages separately caused by that conduct.” Id. “When two or more persons have joined in or

App. 18
contributed to a single infringement of a single copyright, each is jointly and severally liable; [and in such]
circumstances, in a single infringement action. . . .”
Nimmer § 14.04[E][2][d][i] (footnote omitted); see, e.g.,
Adobe Sys. Inc. v. Blue Source Grp., Inc., 125 F. Supp.
3d 945, 973 (N.D. Cal. 2015).
Appellants argue that all defendants are jointly
and severally liable for all infringements in the action
because all the downstream infringers contributed to
Desire’s injuries in the form of the compensation Desire otherwise would have recouped from the use of its
copyrighted design. Thus, Appellants contend that Desire suffered one indivisible injury for all the infringements flowing from Manna’s source infringement, and
that each defendant is jointly and severally liable for
all infringements, regardless of whether an infringement occurred in a defendant’s independent chain of
distribution. We disagree.
Appellants’ formulation of joint and several liability rests on a flawed understanding of the injury
that stems from copyright infringement. In Appellants’ view, each separate act of downstream infringement contributed to a single indivisible injury: the loss
of compensation that Desire would have otherwise realized from the use of its copyrighted design. But we
have recognized that the “rewards” that Congress intended to secure for the owner of a copyright “need not
be limited to monetary rewards.” Worldwide Church of
God v. Phila. Church of God, Inc., 227 F.3d 1110, 1119
(9th Cir. 2000). Indeed, “[t]he copyright law does not
require a copyright owner to charge a fee for the use of

App. 19
his works. . . . It is not the role of the courts to tell copyright holders the best way for them to exploit their
copyrights. . . .” Sony Corp. of Am. v. Universal City
Studios, Inc., 464 U.S. 417, 446 n.28 (1984).
Thus, we think that a view of “harm” or “injury”
cabined only to Desire’s loss of compensation is inconsistent with the Copyright Act. Rather, we think correct the district court’s formulation of joint and several
liability, which considers which defendants were responsible for which acts of infringement.
Desire’s damages were divisible. Each upstream
infringer was a “but for” cause of all downstream infringements in its chain of distribution, because absent
the upstream infringer’s distribution, no downstream
infringer would have received any infringing item.
Since the district court could determine which group of
defendants legally caused each set of infringements, it
divided the infringements into seven sets: (1) Manna’s
distribution to Pride & Joys, ABN, and Top Fashion
(only Manna liable); (2) Top Fashion’s sale to Ashley
Stewart (Manna and Top Fashion jointly and severally
liable); (3) Ashley Stewart’s display and sale to consumers (Manna, Top Fashion, and Ashley Stewart
jointly and severally liable); (4) ABN’s sale to Burlington (Manna and ABN jointly and severally liable);
(5) Burlington’s display and sales to consumers
(Manna, ABN, and Burlington jointly and severally liable); (6) Pride & Joys’s sale to 618 Main (Manna and
Pride & Joys jointly and severally liable); and (7) 618
Main’s display and sales to consumers (Manna, Pride
& Joys, and 618 Main jointly and severally liable).

App. 20
Here, there was no evidence any downstream infringer was the “but for” cause of any upstream infringement in the other chains of distribution, or, in the
case of the Retail Defendants, the “but for” cause of
Manna’s sale to any Manufacturer Defendant.8 The
district court properly found on summary judgment
that while some defendants could be jointly and severally liable with some other defendants, not all defendants could be jointly and severally liable with all other
defendants.9
This conclusion does not end our inquiry. Though
we agree that the district court correctly determined
joint and several liability, we hold the district court
erred in awarding Desire multiple statutory damages
awards totaling $480,000.

8

In a case like this, where one purchases infringing goods
with knowledge of the goods’ infringing character, a court could
find the purchaser was a legal cause of the infringing act of distribution and contributorily liable for it. See Ellison v. Robertson,
357 F.3d 1072, 1076 (9th Cir. 2004) (“One who, with knowledge of
the infringing activity, induces . . . infringing conduct of another
may be liable as a contributory copyright infringer.” (alterations,
internal quotation marks, and citation omitted)).
That said, it does not appear that Desire ever pursued a theory of contributory infringement based on the purchase of articles
bearing the infringing design. And even if Desire had done so, it
would not alter our conclusion that joint and several liability is
incomplete, as there is no evidence that any purchaser contributed to acts of infringement in other chains of distribution.
9
For example, 618 Main was not a “but for” cause of Manna’s
distribution to Top Fashion. Thus, 618 Main was not jointly and
severally liable with Top Fashion.

App. 21
2. The Copyright Act permits only one
award of statutory damages here.
The Copyright Act permits a copyright owner to
elect an award of statutory damages in lieu of actual
damages and profits. 17 U.S.C. § 504(c)(1) (“Section
504(c)(1)”). Section 504(c)(1) permits an owner to recover “an award of statutory damages for all infringements involved in the action, with respect to any one
work, for which any one infringer is liable individually,
or for which any two or more infringers are liable
jointly and severally.” Id. Section 504(c)(1) limits statutory damages awards to $150,000 for willful infringement and $30,000 for innocent infringement. Id.
§ 504(c)(1), (2). “The number of awards available under
this provision depends not on the number of separate
infringements, but rather on (1) the number of individual ‘works’ infringed and (2) the number of separate
infringers.” Friedman v. Live Nation Merch., Inc., 833
F.3d 1180, 1189-90 (9th Cir. 2016). There is no dispute
that Appellants infringed one work, the Subject Design. The pertinent question, then, is whether the Act
authorized the district court to issue multiple statutory damages awards where one infringer is jointly and
severally liable with all other infringers, but the other
infringers are not completely jointly and severally liable with one another. The answer is no.

App. 22
a. The text of Section 504(c)(1) limits Desire to one award of statutory damages.
As in all statutory interpretation, “our inquiry begins with the statutory text, and ends there as well if
the text is unambiguous.” BedRoc Ltd., LLC v. United
States, 541 U.S. 176, 183 (2004). “[W]hen the statutory
language is unambiguous, the plain meaning controls.”
Afewerki v. Anaya Law Grp., 868 F.3d 771, 778 (9th
Cir. 2017) (internal quotation marks and citation
omitted). We conclude that the plain meaning of Section 504(c)(1) precludes multiple awards of statutory
damages when, as here, there is only one work infringed by a group of defendants that have partial joint
and several liability amongst themselves through a
prime tortfeasor that is jointly and severally liable
with every other defendant.
The Act clearly provides for an award of statutory
damages for all infringements of a single work “for
which any two or more infringers are liable jointly and
severally.” 17 U.S.C. § 504(c)(1) (emphasis added). This
is such a case. Manna is jointly and severally liable
with ABN, Top Fashion, Pride & Joys, and 618 Main.
See supra Part I. And “an award” clearly means one
award. Thus, as every district court to consider this
statute and this question has concluded (besides the
district court in this case), “[f ]or any two or more
jointly and severally liable infringers, a plaintiff is entitled to one statutory damage award per work.” Arista
Records LLC v. Lime Grp. LLC, 784 F. Supp. 2d 313,
316 (S.D.N.Y. 2011); see also, e.g., Clever Factory, Inc. v.

App. 23
Kingsbridge Int’l, Inc., No. 3:11-1187, 2014 WL
2711986, at *2 (M.D. Tenn. June 16, 2014); Agence
Fr. Presse v. Morel, 934 F. Supp. 2d 584, 590 (S.D.N.Y.
2013); McClatchey v. Associated Press, No. 3:05-cv145, 2007 WL 1630261, at *4 (W.D. Pa. June 4, 2007);
Bouchat v. Champion Prods., Inc., 327 F. Supp. 2d 537,
553 (D. Md. 2003), aff ’d on other grounds sub nom.
Bouchat v. Bon-Ton Dep’t Stores, Inc., 506 F.3d 315
(4th Cir. 2007).
Desire and the dissent argue, though, that all defendants must be jointly and severally liable for all the
infringements for the statute to limit a plaintiff to a
single statutory damages award. But not only is that
interpretation contrary to the plain and unambiguous
meaning of the statute, it would also run afoul of the
canon of statutory interpretation that “courts should
disfavor interpretations of statutes that render language superfluous.” Conn. Nat’l Bank v. Germain, 503
U.S. 249, 253 (1992).
Nothing in the Act’s text requires complete joint
and several liability to limit the plaintiff to “an
award.” Requiring complete joint and several liability
among all defendants “would render the word ‘any’ [in
‘for which any two or more infringers are liable jointly
and severally’] superfluous, or alternatively, would
rewrite the statute to impose a single award only
where ‘all infringers are liable jointly and severally.’”
McClatchey, 2007 WL 1630261, at *4 (first emphasis

App. 24
added).10 Section 504(c)(1)’s use of the word “any”
means that if all infringers in the action were jointly
and severally liable with at least one common infringer
10

The dissent’s statutory analysis runs counter to its own interpretation of “any.” See dissent at p. 50-51. We agree with the
dissent (and the Supreme Court) that “the word ‘any’ has an expansive meaning, that is, one or some indiscriminately of whatever kind.” Dissent at p. 50 (emphasis added) (quoting United
States v. Gonzales, 520 U.S. 1, 5 (1997)). Thus, in Gonzales, the
Supreme Court noted that the phrase “any other term of imprisonment” encompassed all terms of imprisonment, not only those
in federal prison. Gonzales, 520 U.S. at 5. Similarly, our interpretation of “any” to include a group of defendants that have partial
joint and several liability amongst themselves through a prime
tortfeasor that is jointly and severally liable with every other defendant is the correct expansive meaning. It includes the most
expansive type of joint and several liability (partial), rather than
limiting the definition to only complete joint and several liability.
Further, the dissent is incorrect when it notes that “it matters
which specific acts of infringement each defendant is jointly and
severally liable for,” dissent at p. 51, because it reads out the word
“all” that precedes “infringements involved.” The phrase “all infringements” signals to the court that it does not matter how
many or which specific infringements each defendant is liable for
in a single work—there will still be one award per work.
The error of this interpretation becomes clear when applied
to individually liable infringers, see Arista Records, 784 F. Supp.
2d at 316 (“Congress intended for the Copyright Act to treat jointly
and severally liable infringers the same way that the statute treats
individually liable infringers.”). Courts would now be similarly
required to focus on which specific infringements each individual
infringer is liable for to determine the number of awards. This
would shift the focus away from individual liability for “all infringements involved in the action, with respect to any one work.”
17 U.S.C. § 504(c)(1). Plaintiffs could recover an award for every
specific act of infringement where there are multiple individually
liable defendants—instead of one statutory award for each individually liable defendant “with respect to any one work.” Id. (emphasis added).

App. 25
(here Manna) all defendants should be treated as one
unit. “The intent of this statute . . . appears to be to
constrain the award of statutory damages to a single
award per work, rather than allowing a multiplication
of damages based on the number of infringements.”
Agence Fr. Presse v. Morel, 934 F. Supp. 2d 547, 580
(S.D.N.Y. 2013), superseded in part by Agence Fr. Presse,
934 F. Supp. 2d 584.
Though our inquiry as to the meaning of the statute both begins and ends with the text, we note that
the statutory damages award is an alternative to an
actual damages award, and the election is always at
the option of the copyright owner. Other statutory
schemes might also be logical. But it makes sense that
Congress, rather than creating a statute that awarded
a windfall, instead created a statute that allowed actual damages plus costs and attorneys’ fees or (if actual
damages are too small to afford a meaningful deterrent) a statutory damages award of up to $150,000 plus
costs and attorneys’ fees. When the defendants have
infringed more than one work, a plaintiff may seek additional awards of statutory damages. Likewise, additional groups of jointly and severally liable defendants
may be subject to separate awards of statutory damages, but only if no defendant in a group (as to which a
separate award is sought) is jointly and severally liable
with a member of another group.11
11

Here, for example, if Manna were not involved at all and
Pride & Joys, ABN, and Top Fashion had independently infringed, there could be three awards, even though Pride & Joys,
ABN, and Top Fashion were each jointly and severally liable with

App. 26
Desire posits that our decision in Columbia Pictures Television v. Krypton Broadcasting of Birmingham, Inc. (Columbia I), 106 F.3d 284 (9th Cir. 1997),
rev’d on other grounds sub nom. Feltner v. Columbia
Pictures Television, Inc., 523 U.S. 340 (1998), dictates
that we hold that Section 504(c)(1) permits separate
statutory damages awards in situations like this. We
disagree.
In Columbia I, we affirmed an $8.8 million judgment—comprised of 440 statutory damages awards
and based on 440 separately infringed works—against
a single individual. See Columbia Pictures Television,
Inc. v. Krypton Broad. of Birmingham, Inc. (Columbia
II), 259 F.3d 1186, 1190 (9th Cir. 2001).12 The district
court initially determined that defendant Feltner,
the owner of a company that owned three television
others in their separate distribution chains. See Agence Fr.
Presse, 934 F. Supp. 2d at 579 (“[I]f a group (‘two or more’) of infringers have engaged in any number of infringements for which
all are jointly and severally liable, the statute again mandates a
single statutory award of damages per work infringed.”). This
view treats groups of jointly and severally liable defendants that
are not jointly and severally liable with other groups identically
to individually liable infringers. See Arista Records, 784 F. Supp.
2d at 316 (“[T]he Court is confident that Congress intended for
the Copyright Act to treat jointly and severally liable infringers
the same way that the statute treats individually liable infringers.” (emphasis omitted)).
12
The Supreme Court reversed our decision in Columbia I
because it found the Seventh Amendment guaranteed Feltner a
jury trial on the total amount of statutory damages. Columbia II,
259 F.3d at 1190-91. On remand the jury awarded Columbia
$31.68 million, and Feltner again appealed to this court. Id. at
1191.

App. 27
stations, was vicariously liable for these television
stations’ displaying Columbia’s copyrighted television episodes.13 Columbia I, 106 F.3d at 288. Before the
district court (and on appeal), Feltner argued unsuccessfully that the number of awards should be reduced
because the stations were all owned under a common
owner. Id. at 294 n.7. Specifically, he argued that when
calculating damages, multiple television stations displaying identical television episodes should count as a
single work per episode. The district court disagreed,
concluding that separate displays of identical television episodes14 by different stations qualified as separate works. Columbia II, 259 F.3d at 1190 (explaining
that “the district court determined that Feltner infringed 440 separate ‘works’ ”). We “generally affirmed
the district court’s rulings” in Columbia I, and when
the case returned to us on remand from the Supreme
13

Plaintiff Columbia separately licensed the three stations
to broadcast episodes of television shows as to which it owned the
copyrights. Columbia I, 106 F.3d at 288. When the stations became delinquent in paying royalties, Columbia terminated (or attempted to terminate) the licenses, but the stations continued
broadcasting the television shows and Columbia sued. Id. “During
the course of the litigation, Columbia dismissed all claims against
all defendants with the exception of the copyright claims against
Feltner.” Columbia II, 259 F.3d at 1190. The district court then
found Feltner “vicariously and contributorily liable for the copyright infringement committed by the defendant stations” for the
separate copyright infringements. Id. The district court held Feltner was liable for 664 separate infringements of Columbia’s copyrighted works.
14
There were about 149 unique episodes of one television
show that were shown by two stations. It does not appear from
the record that the infringing episodes shown by the third television station overlapped with the other two stations.

App. 28
Court, we remanded back to the district court “on the
sole question of the amount of money to award Columbia.” Id. at 1190-91. After a jury trial on the amount of
damages, the jury awarded Columbia $31.68 million,
and we again affirmed.15 Id. at 1189. Ultimately, Feltner, the owner and only defendant on trial, was responsible for 440 separate awards based on 440 works. We
emphasized this in Columbia II, noting that “the
Copyright Act . . . permits an award of statutory damages ‘for all infringements involved in the action, with
respect to any one work.’ ” Id. at 1190 (quoting 17
U.S.C. § 504(a)(1)). There, Feltner once again asserted
that because two of the stations were joint tortfeasors,
an episode should count as only “one work” when each
station separately aired the same episode. Id. at 1194.
We rejected this view because “his connection with
each of the stations . . . simply ma[de] Feltner a joint
tortfeasor with each station—it [did] not make each
station a joint tortfeasor with respect to the other.” Id.
(citing Columbia I, 106 F.3d at 294). Thus, what we rejected in Columbia II was an argument that separate
acts of infringement of the same television episode
by different televisions stations result in only one infringed work simply because there was a common
owner of the stations.
But no one here has argued that the defendants’
separate infringing acts of the pattern design resulted
in multiple infringed works. As the dissent notes, “it
15

The jury awarded approximately “$72,000 for each of the
440 works infringed, which [was] within the statutory damages
range for willful infringement.” Columbia II, 259 F.3d at 1191.

App. 29
was undisputed that there was only one ‘work’ at issue.” Dissent, at p. 41. Nor is Manna an owner of the
downstream infringers whose liability stemmed only
from its corporate relationship with those infringers.
Rather, unlike Feltner, Manna is a prime tortfeasor in
all three distribution chains. The underlying question
here—how does the Copyright Act treat multiple acts
of separate infringements of one work—was never directly considered in Columbia I or Columbia II because
the district court ruled there were 440 statutory
awards from 664 separate infringements of 440 separate works.16 These cases thus shed little light on the
issue here.17

16

The district court’s ruling of 440 infringed works affirmed
in Columbia I and II also impliedly supports our read of the statute. While Feltner was initially found liable for 664 separate acts
of infringement, the district court then held after a bench trial
that Columbia was only entitled to 440 statutory awards, or one
award per work infringed. See Columbia I, 106 F.3d at 296 (finding “the district court’s award of $20,000 per work infringed [was]
well within the statutory limits” (emphasis added)). On remand,
the jury also only considered Feltner’s liability from 440 works
and awarded a total amount that was “equal to a per work infringed award that [was] well within the statutory range for willful infringement.” Columbia II, 259 F.3d at 1195. Here, however,
Manna is liable for $480,000, well outside the $150,000 “statutory
range for willful infringement” per work infringed. Id. This further cuts against the dissent’s view that multiple awards are
available.
17
Desire and the dissent, see dissent at p. 45, both argue that
we are constrained by footnote 7 in Columbia I, in which we wrote
that “[b]ecause the stations were not jointly and severally liable
with each other, Feltner’s liability vis-a-vis the stations merely
renders him jointly and severally liable for each station’s infringements—it does not convert the stations’ separate infringements

App. 30
We also disagree with Desire that Friedman, and
in particular its discussion of a hypothetical posed
in Nimmer (the “Nimmer Hypothetical”), the leading
treatise on copyright law, supports multiple statutory
damages awards here. In Friedman, we expanded on
Columbia I, but stopped a step short of addressing the
issue presented in this appeal. We determined that one
statutory damages award was appropriate when the
defendant had sold infringing products to 104 retailers
the plaintiff had not joined as defendants. We reasoned
that the “holding in Columbia [I] was explicitly premised on the fact that each of the downstream infringers
for whom the plaintiff received a separate damages
award was a defendant in the case.” 833 F.3d at 1191.
Thus,
Section 504(c)(1)’s provision of separate statutory damage awards for the infringement of
each work “for which any two or more infringers are liable jointly and severally” applies
only to parties who have been determined
jointly and severally liable in the course of the
liability determinations in the case for the
infringements adjudicated in the action. A
into one.” 106 F.3d at 294 n.7. But that footnote “neither directly
addressed the statutory text nor engaged in detailed analysis of
the issue.” Agence Fr. Presse, 934 F. Supp. 2d at 582. Cf. Miranda
B. v. Kitzhaber, 328 F.3d 1181, 1186 (9th Cir. 2003) (per curiam)
(“[W]here a panel confronts an issue germane to the eventual resolution of the case, and resolves it after reasoned consideration
in a published opinion, that ruling becomes the law of the circuit. . . .” (emphasis added) (citation omitted)). And the district
court here did not find that multiple infringements of the Subject
Design translated into separate infringements of multiple works.

App. 31
plaintiff seeking separate damages awards on
the basis of downstream infringement must
join the alleged downstream infringers in the
action and prove their liability for infringement.
Id. at 1192. In Friedman, we avoided answering the
question of how Section 504(c)(1) applies when the
plaintiff joins both the common primary source infringer and the downstream infringers as defendants,
when the downstream infringers are not jointly and
severally liable with each other.18 Here, we conclude
that in those circumstances, only one award of statutory damages is permissible.
Nor do we find persuasive Desire’s reliance on the
Nimmer Hypothetical, in which D distributed the
plaintiff ’s copyrighted motion picture to A, B, and C,
who in turn publicly performed that motion picture.
Nimmer § 14.04[E][2][d]. As stated in Nimmer, “[a]lthough A, B, and C are not jointly or severally liable
each with the other, D will be jointly and severally liable with each of the others.” Id. § 14.04[E][2][d][i]. In
those circumstances, according to Nimmer, “three sets
of statutory damages may be awarded, as to each of
which D will be jointly liable for at least the minimum
of $750.” Id.
18

Desire incorrectly interprets Friedman to stand for the
proposition “that if a downstream infringer is added to an action
and its infringement is proven, then a separate award of statutory
damages is appropriate.” Friedman merely held that joinder of an
infringer was a prerequisite to seeking a separate statutory damages award—not that it was sufficient on its own.

App. 32
Although we acknowledge that the Nimmer Hypothetical supports Desire’s position, we decline to adopt
its conclusions. Nimmer offers no basis, except for a citation to Columbia II, for the proposition that multiple
statutory damages awards are appropriate. But we
have already explained that Columbia II does not determine the outcome of this case. And Nimmer never
discusses how multiple statutory damages awards in
the circumstances here adhere to the text of the statute. As several district courts have noted, “subsequent
decisions have rejected outright . . . the Nimmer hypothetical, finding [it] inapplicable to situations involving large numbers of infringements.” Arista Records,
784 F. Supp. 2d at 318; see also Arista Records, 784
F. Supp. 2d at 320 (discussing the Nimmer Hypothetical and concluding that “allowing Plaintiffs to recover
multiple awards per work based on the number of direct infringers is untenable”); Bouchat, 327 F. Supp. 2d
at 553 (“While it may well be possible to distinguish
the Nimmer example from the situation present[,] . . .
[i]t suffices to state that the Court would not follow
[Nimmer’s] conclusion to reward Bouchat with more
than 350 separate statutory damage awards.”). We
agree with those district court decisions.
b. Multiple awards of statutory damages here would produce an absurd
result not intended by Congress.
The result we reach here is the only one consistent
with the plain text of the statute, and we need go no
further. That being said, the interpretation of Section

App. 33
504(c)(1) that Desire and the dissent urge, and the district court adopted, produces an absurd result. See
Rowland v. Cal. Men’s Colony, 506 U.S. 194, 200 (1993)
(invoking “the common mandate of statutory construction to avoid absurd results”). Specifically, requiring
complete joint and several liability among all defendants in order to limit the plaintiff to one award for one
work would lead to disparate treatment of infringers
depending on the relationship between downstream
infringers. Cf. Friedman, 833 F.3d at 1191 (rejecting
the mass-marketing exception in part because “such
an exception would mean reading the statute in two
different ways depending on how many down-the-line
violations there were”).
If Manna, ABN, Top Fashion, and Pride & Joys had
acted in concert to sell infringing materials to downstream retailers (and thus were each jointly and severally liable), each would be shielded from multiple
statutory damages awards by operation of the statute’s
plain language.19 Yet because Manna acted separately
with each downstream infringer, Manna and each of
the next-level downstream infringers would be subject
to multiple statutory damages awards, under the
dissent’s interpretation of the statute. It is illogical
that an infringer should face greater liability for

19

See Bon-Ton Dep’t Stores, 506 F.3d at 329 (“Because NFLP
and the licensee were at fault together for the licensee’s violation,
they are liable jointly and severally for any damages the violation
caused.”).

App. 34
participating in an infringement activity in a less culpable manner.20
The district court’s interpretation would also lead
to potentially astronomical statutory damages awards
contrary to the purpose of Section 504(c)(1).21 Friedman recognized that Section 504(c)(1) should not be
read to “lead[ ] to extremely unlikely results, with direct infringers becoming liable for astronomical sums
in cases with large numbers of downstream infringers
unrelated to each other.” 833 F.3d at 1192; see also id.
(noting that “[t]his risk has become particularly acute
in the internet era, where rapid peer-to-peer file sharing has enabled mass piracy of books, films, music, and
other copyrighted materials”). Adopting the district
court’s interpretation “could lead to awards of statutory damages that are massively disproportionate
when compared to the actual harm caused by the infringing defendants.” Agence Fr. Presse, 934 F. Supp. 2d
at 580; see also Arista Records, 784 F. Supp. 2d at 317
20

Under the rule proposed by Desire, if all defendants here
conspired, Manna would be liable only once, but because downstream infringers did not act together, Manna is to face multiple
awards of statutory damages. Logic would suggest instead that
the broader the conspiracy, the more extensive the co-conspirator
liability, not the reverse. But again, regardless of the comparative
logic of the two approaches, the statute Congress wrote dictates
the result here.
21
The dissent misses the point here, see dissent at p. 48-49.
This is not a “mass-marketing” concern rejected by Friedman, dissent at p. 48-49, nor have we substituted our “own policy preferences for those of Congress,” dissent at p. 55-56. We are motivated
by the very same concern that drove our court’s holding in Friedman. See 833 F.3d at 1192.

App. 35
(“The absurdity of this result is one of the factors that
has motivated other courts to reject [the district court’s]
damages theory.”); McClatchey, 2007 WL 1630261 at *4
(finding persuasive the Bouchat court’s conclusion that
the result would be “absurd” (quoting Bouchat, 327
F. Supp. 2d at 553)).
As awarded by the district court, Manna is jointly
and severally liable for awards totaling $480,000.
Manna asserted in its trial briefing that its profits from
infringing sales did not exceed $5,000 (though the district court noted that the exact amounts of Manna’s
profits were not in evidence). Assuming for argument’s
sake that Manna’s representation is accurate, the district court’s order makes Manna liable for nearly one
hundred times its profits. And while we have here
“only” three chains of infringement resulting in five or
seven awards of statutory damages, the problem of disproportionate awards would increase exponentially in
a case like Friedman, where a plaintiff could recover
thousands (or more) in statutory damages awards
where infringing content is widely distributed over the
internet. See Friedman, 833 F.3d at 1192 (“As the district court rightly recognized, the broad reading of Columbia [I] Friedman urges leads to extremely unlikely
results, with direct infringers becoming liable for astronomical sums in cases with large numbers of downstream infringers unrelated to each other.”).

App. 36
c. Permitting multiple awards of
statutory damages here would
frustrate the purposes of the
Copyright Act.
Finally, we believe the district court’s approach to
be contrary to the purposes of the Act. “Statutory damages are available in order to effectuate two purposes
underlying the remedial provisions of the Copyright
Act: to provide adequate compensation to the copyright
holder and to deter infringement.” Frank Music Corp.
v. Metro-Goldwyn-Mayer Inc., 886 F.2d 1545, 1554 (9th
Cir. 1989). “Statutory damages are intended as a substitute for profits or actual damage,” Frank Music Corp.
v. Metro-Goldwyn-Mayer, Inc., 772 F.2d 505, 520 (9th
Cir. 1985), and should not provide copyright owners a
windfall. Congress specifically limited the amount of
statutory damages available per award and limited a
plaintiff to a single award no matter how many infringements an individual defendant or group of jointly
and severally liable defendants committed.
We are mindful of the fact that under the approach
we adopt today, a plaintiff might achieve the result Desire seeks by suing separate infringers in separate actions, arguably frustrating the purposes of the Act as
well. We still think our approach is preferable to the
alternative, for several reasons.
First, we think that even if this is a risk, it is outweighed by the vastly disproportionate damages
awards that would flow from a contrary interpretation
of Section 504(c)(1). Second, the risk is not unique to

App. 37
our interpretation. Even under the approach advocated by Desire and adopted by the district court, only
one statutory damages award is available for each
group of completely jointly and severally liable defendants. A plaintiff could still sue each defendant
separately to increase its potential recovery, regardless that the separately sued defendants participated
in the same course of infringing conduct. See Friedman, 833 F.3d at 1191 (“Any downstream infringements cannot be ‘involved in the action’ unless the
alleged infringers responsible for those infringements
were joined as defendants in the case, and the particular alleged infringements involving them adjudicated.”). Thus, the presence of infringers not joined in
the case will not defeat a plaintiff ’s ability to increase
his recovery by engaging in separate lawsuits.
Third, if an enterprising plaintiff tried to sue
jointly and severally liable defendants in different actions to evade the single-statutory-damages-award
limit, those defendants could argue to the jury that
their liability for statutory damages should be materially lessened. See Bryant v. Media Right Prods., Inc.,
603 F.3d 135, 144 (2d Cir. 2010) (observing that a statutory damages award may account for the infringer’s
“expenses saved, and profits earned,” “the revenue lost
by the copyright holder,” and “the deterrent effect on
the infringer and third parties,” among other factors); Dream Games of Ariz., Inc. v. PC Onsite, 561
F.3d 983, 992 (9th Cir. 2009) (“If statutory damages
are elected, the jury has wide discretion in determining the amount of statutory damages to be awarded,

App. 38
constrained only by the specified maxima and minima.
The jury is guided by what is just in the particular
case, considering the nature of the copyright, the circumstances of the infringement and the like. . . .” (internal quotation marks, citations, and alterations
omitted)).
And fourth, a court could consolidate such multiple actions (if brought in the same district) in a single action under Federal Rule of Civil Procedure
42(a).22 And if the claims are brought in different districts, a defendant could seek transfer under 28 U.S.C.
§ 1404(a), which permits a district court to transfer
venue in a civil action “[f ]or the convenience of parties
and witnesses, in the interest of justice.” A plaintiff attempting to avoid consolidation or transfer by suing individual defendants seriatim would likely run up
against the three-year statute of limitations for copyright infringement claims. See 17 U.S.C. § 507(b).23
22

The dissent, citing no case law or treatise, asserts that this
would be a violation of the Rules Enabling Act and wonders how
the district courts will “work around [our] mess.” Dissent at p. 55.
But the out-of-circuit district courts that have considered the issue (remember no other circuit has adopted the dissent’s statutory interpretation of Section 504) have managed these past
thirteen years.
23
According to the dissent “[i]t will instead become commonplace for plaintiffs to bring a separate lawsuit against each defendant” to maximize the number of statutory damages awards.
Dissent at p. 53. But if this were the case it would have already
happened in every circuit in which district courts have considered
the issue we face, especially because no other circuit (that we are
aware of ) requires plaintiffs to join downstream defendants in the
action.

App. 39
But even if we are wrong in our appraisal of the
multiple-lawsuit risk, as our approach is the only one
consistent with the text of Section 504(c)(1), it is not
our job to reweigh the merits of the several possible
approaches. “Whatever merits these . . . policy arguments may have, it is not the province of this [c]ourt to
rewrite the statute to accommodate them.” Artuz v.
Bennett, 531 U.S. 4, 10 (2000).
Desire also contends that multiple statutory damages awards may be necessary to realize the goals of
the Copyright Act by fully compensating a plaintiff and
deterring all infringers in an action. But this argument
is unavailing for three reasons: First, Section 504(c)(1)
already provides for the factfinder to consider the
number of direct infringers and the number of infringements of the copyrighted work when determining the amount of statutory damages. See Dream
Games of Ariz., 561 F.3d at 992. Second, it is the copyright holder’s choice to pursue statutory damages rather than actual damages and profits under 17 U.S.C.
§ 504(b). If statutory damages are inadequate to fully
compensate the injured party, it may elect actual
damages instead. And third, and most important, if
Desire’s position is superior from a public policy perspective, it is for Congress alone to amend the statute.
See Artuz, 531 U.S. at 10.
III. CONCLUSION
We affirm the district court’s grant of summary
judgment as to the ownership and scope of copyright

App. 40
protection, as well as the district court’s exclusion of
Young’s testimony. We reverse the district court’s
grant of summary judgment as to the number of statutory damages awards available, vacate the judgment
awarding Desire multiple awards of statutory damages, and remand for further proceedings consistent
with this opinion.
Each party shall bear its own costs on appeal.
AFFIRMED IN PART, REVERSED IN PART,
VACATED, AND REMANDED.

WARDLAW, Circuit Judge, concurring in part and dissenting in part:
I respectfully dissent from the majority’s conclusion that Desire is entitled to only one award of statutory damages against the five defendants whom the
jury concluded separately infringed varying exclusive
rights in copyright.1 The majority ranges far afield to
reach a conclusion that is not only contrary to controlling Ninth Circuit precedent on statutory damages in
copyright but also creates perverse incentives for copyright litigation. After today’s decision, a copyright
plaintiff can seek only one award of statutory damages when it joins in a single lawsuit members of independently infringing distribution chains that trace
1

I concur with the majority’s conclusions in Parts II.B-C of
the majority opinion that Desire owned a valid copyright in the
Subject Design and that the design was entitled to broad copyright protection.

App. 41
back to a common infringing source. But if the plaintiff
brings separate lawsuits against each infringer, or if it
simply cuts the common source defendant at the top of
the chain out of the case, a separate statutory damages
award is available against each defendant.
This rule makes little sense. And worse still, it was
entirely unnecessary for the majority to reach the
question because none of the five separate, independently liable, copyright infringers in this case was
actually found jointly and severally liable with another. Thus, the majority creates law with enormous
implications for copyright owners litigating to protect their rights, in a case where the critical issue—
whether only one award of statutory damages is allowable where one infringer is found jointly and severally
liable for the downstream infringers’ conduct, but the
downstream infringers are not jointly and severally liable with each other—is not even before us.
I.

No Defendant Was Held Jointly and Severally Liable for the Copyright Infringement
of Another Defendant.

The judgment entered on September 29, 2017, following the jury verdict, does not hold any party jointly
and severally liable for any other party’s statutory
damages. The district court expressly rejected a “[proposed] amended judgment” that included language
finding joint and several liability. Nor did the special
verdict form address joint and several liability or

App. 42
secondary infringement; nor were those questions the
subject of a single jury instruction.
The issue of multiple awards of statutory damages
arises from the district court’s September 22, 2017,
pre-trial “Order re Plaintiff ’s Entitlement to Separate
Statutory Damages Awards” (the Statutory Damages
Order). In that order, the district court applied wellestablished principles of contributory liability and our
decisions in Friedman v. Live Nation Merch., Inc., 833
F.3d 1180 (9th Cir. 2016), and Columbia Pictures Television v. Krypton Broad. of Birmingham, Inc., 106 F.3d
284 (9th Cir. 1997), rev’d on other grounds sub nom.
Feltner v. Columbia Pictures Television, Inc., 523 U.S.
340 (1998), to conclude that because this is a case
“where separate infringements for which two or more
defendants are not jointly liable are joined in the same
action, separate awards of statutory damages would be
appropriate.” See Columbia Pictures, 106 F.3d at 294
(quoting H.R. Rep. No. 94-1476, at 162 (1976), reprinted in 1976 U.S.C.C.A.N. 5659, 5778). But while the
order reflects how the district court expected to apply
joint and several liability after trial, the court never
actually held that Manna, or any of the other defendants, is jointly and severally liable for payment of the
statutory damages awarded against another defendant.
Under 17 U.S.C. § 504(c)(1), a copyright owner
may elect to recover
an award of statutory damages for all infringements involved in the action, with respect to

App. 43
any one work, for which any one infringer is
liable individually, or for which any two or
more infringers are liable jointly and severally, in a sum of not less than $750 or more
than $30,000 as the court considers just.
In the event of willful infringement, “the court in
its discretion may increase the award of statutory
damages to a sum of not more than $150,000.” Id.
§ 504(c)(2). As we have previously explained, the number of statutory damages awards available under
§ 504(c)(1) “depends not on the number of separate infringements, but rather on (1) the number of individual
‘works’ infringed and (2) the number of separate infringers.” Friedman, 833 F.3d at 1189-90.
Here, it was undisputed that there was only one
“work” at issue: Desire’s copyrighted CC3460 floral
print textile design. It was also undisputed at the time
of the Statutory Damages Order that there were seven
defendants who were each alleged to have directly and
independently infringed the copyrighted work.2 At the
top of the distribution chain sat Manna, a fabric supplier that intentionally reproduced the copyrighted design and distributed the infringing product to three
2

An infringer is “[a]nyone who violates any of the exclusive
rights of the copyright owner” granted by the Copyright Act. 17
U.S.C. § 501(a); see A&M Records, Inc. v. Napster, Inc., 239 F.3d
1004, 1013 (9th Cir. 2001) (noting that direct copyright infringement occurs when “the alleged infringers violate at least one exclusive right granted to copyright holders under 17 U.S.C. § 106”).
Those exclusive rights include the reproduction, preparation of
derivative works, distribution, public performance, and public
display of the copyrighted material. 17 U.S.C. § 106.

App. 44
women’s clothing manufacturers—ABN, Pride & Joys,
and Top Fashion—who occupied the middle rung of
the chain. The manufacturers, in turn, created garments out of the infringing fabric and sold them to the
retailer defendants—Ashley Stewart, Burlington, and
618 Main—who then distributed and publicly displayed the infringing garments.
By the time of trial, Ashley Stewart and Burlington had settled and were no longer part of the case. For
the remaining five defendants, the jury adjudicated liability and concluded that Manna, ABN, and Top Fashion were willful infringers, and that Pride & Joys and
618 Main had innocently infringed. It awarded the
maximum $150,000 in statutory damages against each
of the willful infringers, $20,000 against Pride & Joys,
and $10,000 against 618 Main.
The jury was not asked to find any party jointly
and severally liable. That is because the district court,
in the pre-trial Statutory Damages Order, had decided
that it would determine joint and several liability itself, depending on the jury’s verdict. The pretrial order
expressly noted that it was delineating the statutory
damages that were “theoretically available” depending
on what was proved at trial, and that after the jury
returned its verdict, “the Court w[ould] then apply
joint and several liability as discussed [in the Statutory Damages Order] to allocate damages in accordance with section 504(c)(1).”
But the district court never did that allocation. Indeed, Desire, the party that would benefit from a

App. 45
finding of joint and several liability, did not seek joint
and several liability against the defendants. The majority treats the Statutory Damages Order as though
it applied to the jury verdict without any further action
by the district court. Majority Op. at 10. But it is clear
from the face of the Statutory Damages Order that it
was not self-executing. As the order explains, it set
forth the framework that “the Court w[ould] then apply” after the jury’s determination of liability. (emphasis added). In other words, the order expressly
contemplated that the district court would take some
affirmative post-verdict action to apply joint and several liability principles to the defendants in this case,
if warranted by the trial evidence. It is undisputed that
the district court never did so.
Moreover, we review final judgments, not opinions
or pre-trial orders. See Jennings v. Stephens, 574 U.S.
271, 277 (2015) (“This Court, like all federal appellate
courts, does not review lower courts’ opinions, but their
judgments.”). The judgment in this case reads as follows:
IT IS ORDERED AND ADJUDGED that
Plaintiff Desire, LLC recover of Defendants:
Manna Textiles, Inc.

$150,000

A.B.N., Inc.

$150,000

Top Fashion of N.Y., Inc. $150,000
Pride & Joys, Inc.

$20,000

618 Main Clothing Corp. $10,000

App. 46
On its face, the judgment limits Desire to collecting only the specified amounts from each defendant.
Nothing in the judgment holds any defendant jointly
and severally liable for another’s damages.
The majority contends that the pre-trial statutory
damages order was “draw[n] in” to the judgment. Majority Op. at 15 n.5. Of course, the majority is correct
that pre-trial orders generally merge into a final judgment. See Am. Ironworks & Erectors, Inc. v. N. Am. Constr. Corp., 248 F.3d 892, 897 (9th Cir. 2001). But when
a judgment is inconsistent with a pre-trial order, the
judgment must control. It is the judgment, not the pretrial order, that ultimately “define[s] the rights and liabilities of the parties.” Jennings, 574 U.S. at 277 (“[A]
rule that . . . makes the opinion part of the judgment,
is peculiar. . . .”). An order issued before trial therefore
cannot modify a judgment entered after trial.
For all its mighty strivings, the majority cannot
make the judgment say something it does not. Because
we cannot make a joint and several liability finding
ourselves on appeal, the proper course would be to remand for the district court to either correct its judgment—if the omission of joint and several liability was
a mere oversight, see Fed. R. Civ. P. 60(a)—or for the
district court to adjudicate joint and several liability in
the first instance and enter judgment accordingly. Instead, the majority incorrectly interprets § 504(c)(1),
and then applies that misinterpretation to its hypothetical finding of joint and several liability.

App. 47
II.

The Majority’s Interpretation of § 504(c)(1)
Runs Directly Contrary to Controlling
Ninth Circuit Precedent.

The majority’s analysis should have started and
stopped with our precedential decisions in Columbia
Pictures and Friedman.
In Columbia Pictures, we held that “where separate infringements for which two or more defendants
are not jointly liable are joined in the same action, separate awards of statutory damages would be appropriate.” 106 F.3d at 294 (quoting H.R. Rep. No. 94-1476, at
162 (1976), reprinted in 1976 U.S.C.C.A.N. 5659, 5778).
There, after a bench trial on statutory damages, the
district court found that the infringement of Columbia
Pictures Television’s copyright in certain television series by three television stations joined in the action,
along with their owner, as defendants, were “separate
acts of infringement” subject to separate awards of
statutory damages. Id. We affirmed, because the three
stations broadcasting the infringing television episodes were not “joint tortfeasors.” Id.
We also upheld the district court’s conclusion that
the station owner defendant was vicariously and contributorily liable for the three television stations’ separate displays of the copyrighted television shows and
was therefore jointly and severally liable with each
station. Id. at 288, 294 & n.7; see also Friedman, 833
F.3d at 1190 (explaining the holding of Columbia
Pictures). We rejected the defendant owner’s argument that only one and not multiple sets of statutory

App. 48
damages was appropriate, reasoning that “[b]ecause
the stations were not jointly and severally liable with
each other, [the owner’s] liability vis-a-vis the stations
merely renders him jointly and severally liable for
each station’s infringements—it does not convert the
stations’ separate infringements into one.”3 Columbia
Pictures, 106 F.3d at 294 n.7.
As in Columbia Pictures, if the district court here
had found Manna jointly and severally liable for all the
downstream separate infringements, that would not
convert the subsequent separate infringements into
one because the downstream defendants are not joint
tortfeasors. It does not matter that Manna is also liable
for its own distinct, separate violation of Desire’s
copyright because it copied the fabric design and distributed those copies.

3

The majority all but concedes that this part of the Columbia
Pictures opinion is in direct conflict with its conclusion that only
one statutory damages award is available in this case. It attempts
to brush past the passage as dicta, quoting an out-of-circuit district court’s characterization of it as “neither directly address[ing]
the statutory text nor engag[ing] in detailed analysis of the issue.”
Majority Op. at 29 n.17 (quoting Agence France Presse v. Morel,
934 F. Supp. 2d 547, 582 (S.D.N.Y. 2013)). But Footnote 7 is
clearly not dicta—it provided the entire reasoning for rejecting
one of the defendant’s arguments. See United States v. RiveraCorona, 618 F.3d 976, 986 (9th Cir. 2010) (Fisher, J., concurring)
(“A proposition necessary to the holding cannot be dicta.”). While
the out-of-circuit district court in Agence France Presse may have
been free to decline to follow Footnote 7, the panel majority here
is bound by it. See Miller v. Gammie, 335 F.3d 889, 900 (9th Cir.
2003) (en banc).

App. 49
Five years ago, in Friedman, we reaffirmed the
holding in Columbia Pictures, reiterating that the
three statutory damages awards in that case were appropriate because the three downstream television
stations there “were each jointly and severally liable
with the [station owner] defendant but not with each
other.” 833 F.3d at 1190. In Friedman, defendant Live
Nation had distributed goods bearing copyrighted images to 104 different retailers, who then also infringed
the copyrighted works. Id. at 1183-84. The district
court rejected the plaintiff ’s effort to seek 104 separate
statutory damages awards, reasoning that doing so
would “lead to an absurd result.” Id. at 1191. While it
recognized that Columbia Pictures was “binding precedent” holding that separate awards were appropriate
in this circumstance, the district court nonetheless
concluded that Columbia Pictures should not be applied to a “mass-marketing campaign” like the one
there. Id.
We squarely rejected the district court’s rationale
for disallowing separate statutory damages awards.
We held that Columbia Pictures “is the law of this circuit, and nothing in the opinion—or in the text of the
statute itself—admits of a ‘mass-marketing’ exception.”4 Id.
4

We ultimately held in Friedman that a plaintiff can seek
separate statutory damages awards only if it joins the alleged
downstream infringers in the action and proves their liability.
Friedman, 833 F.3d at 1192. That holding is not at issue here because Desire joined each of the downstream infringers as defendants in this case.

App. 50
We also noted with approval that the facts of Columbia Pictures were “analogous” to the hypothetical
discussed by Professor Nimmer in his leading treatise
on copyright law—a hypothetical the majority finds
unpersuasive. Id. at 1190-91. As Professor Nimmer explains, “[i]f each defendant is liable for only one of the
several infringements that are the subject of suit,
then each defendant will be liable for a separate set
of statutory damages (each with its own minimum).”
4 M. Nimmer & D. Nimmer, Nimmer on Copyright
§ 14.04[E][2][d][i] (2020) (hereinafter Nimmer).
The Nimmer Hypothetical is predicated on a single complaint that alleges infringement of the public
performance right in a motion picture against three independent operators of movie theaters—A, B, and C—
who unlawfully publicly performed the plaintiff ’s
movie. Id. Nimmer states that “if A, B, and C have no
relationship with one another, there is no joint or several liability as between them, so that each is liable for
at least a minimum $750 statutory damage award.” Id.
Adding to this hypothetical, Nimmer addresses a
slightly different scenario where “D, without authority,
distributed plaintiff ’s motion picture to A, B, and C,”
and concludes that “[a]lthough A, B, and C are not
jointly and severally liable each with the other, D will
be jointly and severally liable with each of the others.”
Id. Thus, as here, three sets of statutory damages are
awardable: one against A+D, jointly and severally; one

App. 51
against B+D, jointly and severally; and one against
C+D, jointly and severally.5 Id.
To summarize, our court in Columbia Pictures
and Friedman endorsed the Nimmer Hypothetical, rejected the idea of a “mass-marketing exception,” and
adopted a simple rule: separate statutory damages
awards are appropriate when separate downstream infringers are not jointly and severally liable with each
other, even though an upstream defendant might be
jointly and severally liable with each of them. Friedman, 833 F.3d at 1190-91; Columbia Pictures, 106 F.3d
at 294. Under this rule, the outcome of this case is
straightforward. Because the downstream infringers—
ABN, Pride & Joys, Top Fashion, and 618 Main—separately infringed and are not jointly and severally liable
with each other, Desire is entitled to separate statutory
damages awards.
Instead of following Columbia Pictures and Friedman, the majority swerves off in the opposite direction.
While acknowledging that “the Nimmer Hypothetical
supports Desire’s position,” the majority simply “decline[s] to adopt its conclusions.” Majority Op. at 31.
But the Nimmer Hypothetical cannot be so blithely
cast aside. We previously described it as “analogous” to

5

Unlike here, in the Nimmer Hypothetical, D is not separately alleged to have committed an independent act of copyright
infringement, so D’s participation in the movie distribution profits does “not create a fourth set of statutory damages.” Nimmer
§ 14.04[E][2][d][i].

App. 52
Columbia Pictures, a case the majority is not free to
ignore. Friedman, 833 F.3d at 1190.
Instead, the majority writes that allowing separate awards would “lead to potentially astronomical
statutory damages awards contrary to the purpose of
Section 504(c)(1).” Majority Op. at 33. If this refrain
sounds familiar, that is because it is the same “massmarketing” concern we rejected in Friedman. Friedman, 833 F.3d at 1191. The majority grounds its concerns about “astronomical” damages on the exact same
out-of-circuit authority that we faulted the district
court for relying on in Friedman. Compare Majority
Op. at 34-34 (“agree[ing]” with Arista Records LLC v.
Lime Grp. LLC, 784 F. Supp. 2d 313, 318 (S.D.N.Y.
2011), and Bouchat v. Champion Prods., Inc., 327
F. Supp. 2d 537, 553 (D. Md. 2003)), with Friedman, 833
F.3d at 1191 (chastising the district court for relying
on Arista Records and Bouchat because the reasoning
of those cases is contrary to Columbia Pictures).
The majority cannot escape the fact that the relationship between the parties here is precisely the same
as it was in Columbia Pictures. The downstream defendants here each directly infringed the copyright by
violating various of Desire’s exclusive rights in its
copyrighted work, as the stations did in Columbia
Pictures. Manna, in the majority’s view, is jointly and
severally liable for those infringements,6 just as the
Columbia Pictures defendant was jointly and severally
6

It bears repeating that there has never actually been a finding of joint and several liability in this case.

App. 53
liable for the stations’ infringements. Id. And the
downstream defendants here, like the stations in Columbia Pictures, are not jointly and severally liable
with each other. On these facts, multiple statutory
damages awards are available. Friedman, 833 F.3d at
1190; Columbia Pictures, 106 F.3d at 294 & n.7.
The only thing differentiating this case from Columbia Pictures is that Manna also committed its own
intentional direct infringement, for which it alone is
solely liable. But Manna’s additional separate infringement provides no justification for reducing the number
of potential statutory damages awards.
III. The Plain Language of § 504(c)(1) Allows
Multiple Awards of Statutory Damages
When Separate Infringements Are Found.
Even if it were not bound by our controlling precedent in Columbia Pictures and Friedman, the majority’s holding is contrary to the text of § 504(c)(1). We
read the language of the statute “in [its] context and
with a view to [its] place in the overall statutory
scheme.” FDA v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 133 (2000) (quoting Davis v. Mich. Dep’t
of Treasury, 489 U.S. 803, 809 (1989)); see Wilderness
Soc’y v. U.S. Fish & Wildlife Serv., 353 F.3d 1051, 1060
(9th Cir. 2003) (en banc).
Section 504(c)(1) provides “an award of statutory
damages for all infringements” of a single work “for
which any one infringer is liable individually, or for
which any two or more infringers are liable jointly and

App. 54
severally.” At issue here is the meaning of “for which
any two or more infringers are liable jointly and severally.” (emphasis added).
“Any,” is an adjective used to denote choice from
multiple people or things. See Any, Webster’s New
Int’l Dictionary (3d ed. 2002) (defining “any” as “one
indifferently out of more than two; one or more: not
none—used as a function word to indicate a positive
but undetermined number or amount”). Courts have
interpreted “any” in a manner consistent with this dictionary definition. See United States v. Gonzales, 520
U.S. 1, 5 (1997) (“Read naturally, the word ‘any’ has an
expansive meaning, that is, one or some indiscriminately of whatever kind.” (internal quotation marks
omitted)); see also Ali v. Fed. Bureau of Prisons, 552
U.S. 214, 219-20 (2008).
In § 504(c)(1), the word “any” modifies the phrase
“two or more infringers are liable jointly and severally.”
Read most naturally, “any two or more infringers are
liable jointly and severally” means an undetermined
number of the infringers who have been held jointly
and severally liable. Thus, “any” signals that a court
must identify the jointly and severally liable infringers
of the work amongst all of the defendants in the action.
Next, the “any” phrase is preceded by “for which,”
a prepositional phrase that modifies “all infringements
involved in the action, with respect to any one work.”
The statute therefore requires the court to identify the
infringers that are jointly and severally liable with respect to the “infringements involved in the action.” In

App. 55
other words, it matters which specific acts of infringement each defendant is jointly and severally liable for,
not just that a defendant is jointly and severally liable
for some infringement in the case. Thus, the court must
separate the defendants into groups based on the separate infringers and works infringed, with each group
containing all of the defendants who are jointly and
severally liable for a given set of infringements committed.
After these groups have been determined, the statute provides “an award” of statutory damages against
each individually liable infringer or against each distinct group of jointly and severally liable infringers.
Put another way, the statute provides an award for
each separate infringer, whether that is an individually liable infringer or a group of defendants who are
jointly and severally liable for a given set of infringements. Here, that would mean that Desire could recover five statutory damages awards: one for each
group of infringers that is potentially jointly and severally liable for the separate direct infringements committed by the five defendants remaining in the case.7
7

The majority’s holding rests in large part on a counterfactual argument: to permit a plaintiff to recover a separate
statutory damages award against each distinct group of jointly
and severally liable defendants would render superfluous the
word “any” in § 504(c)(1). Majority Op. at 23. But interpreting
§ 504(c)(1) to permit multiple statutory damages awards in this
case does not render the word “any” superfluous. As explained,
the word “any” makes clear that courts must determine which defendants are jointly and severally liable for each separate act of
infringement.

App. 56
This result is consistent with the effect of joint and
several liability, a concept that identifies which defendants are responsible for paying the full amount of
plaintiff ’s damages, not the total amount of damages
to which the plaintiff is entitled. See Restatement
(Third) of Torts: Apportionment Liab. § 10 (“When . . .
some persons are jointly and severally liable to an injured person, the injured person may sue for and recover the full amount of recoverable damages from any
jointly and severally liable person.”); id. § 10 cmt. b
(“[T]he risk that one or more of the parties liable to the
plaintiff is insolvent is placed on the other jointly and
severally liable defendant(s), rather than on the plaintiff.”).
It is also consistent with the structure of the statute, which indisputably permits a separate statutory
damages award for each separate infringer. See Friedman, 833 F.3d at 1190. Thus, even the majority agrees
that Desire could have recovered five statutory damages awards had it simply brought five separate lawsuits against the five remaining defendants. Majority
Op. at 35-37.
Rather than adopting this straightforward construction, the majority interprets § 504(c)(1) to create
a trap for the unwary. By joining the five remaining
defendants in a single case, the majority holds, Desire
unwittingly reduced the number of statutory damages
awards it could recover from five to one. Specifically,
the majority reads § 504(c)(1) to provide that whenever one defendant is jointly and severally liable
with its downstream defendants for all downstream

App. 57
infringements, irrespective of whether those downstream defendants are jointly and severally liable with
each other, the plaintiff can recover only one statutory
damages award. Majority Op. at 22-25. Here, that
means that because Manna is jointly and severally liable with each of the other defendants (in the majority’s view), none of which is jointly and severally liable
with any other party, Desire can obtain only one statutory damages award against all defendants, jointly
and severally.
The majority’s holding will have broad implications for copyright litigation in the Ninth Circuit. After
today, no plaintiff will make the same “mistake” as Desire. It will instead become commonplace for plaintiffs
to bring a separate lawsuit against each defendant,
maximizing the number of statutory damages awards
available while peppering the courts with individual
cases that would be more efficiently tried together. Or
perhaps plaintiffs will simply avoid suing the defendant at the top of the distribution chain—often the most
culpable party—so they can join claims against several
downstream infringers in a single action and receive
separate awards. This is certainly not how copyright
litigation—or really, litigation in general—is supposed
to work. See United Mine Workers of Am. v. Gibbs, 383
U.S. 715, 724 (1966) (“Under the [Federal] Rules [of
Civil Procedure], the impulse is toward entertaining
the broadest possible scope of action consistent with
fairness to the parties; joinder of claims, parties and
remedies is strongly encouraged.”).

App. 58
Recognizing this absurdity, the majority argues
that the risk of separate suits is “outweighed by the
vastly disproportionate damages that would flow from
a contrary interpretation of Section 504(c)(1).” Majority Op. at 35-37. But again, we have already rejected
the idea that there is a “mass-marketing exception” to
the rule of separate statutory damages awards. Friedman, 833 F.3d at 1191. The majority is not free to resurrect a horrible that we have already laid to rest,
particularly as a justification for introducing a nonsensical rule into the law of our circuit.8
The majority also points to several supposed practical limitations that it speculates will make it difficult
for plaintiffs to bring separate suits. Majority Op. at
8

The majority cites various district court decisions that declined to interpret § 504(c)(1) to permit multiple statutory damages awards in circumstances similar to those presented here
because of the potential for astronomical damage awards. Majority Op. at 33-34. However, these courts were not bound by our
ruling in Friedman that the number of downstream infringers
does not affect our interpretation of the statute. 833 F.3d at 1191.
They were also not bound by Friedman’s requirement that an alleged infringer be joined and proven liable for infringement in an
action to support a separate statutory damages award. Id. at
1191-92; see Agence France Presse, 934 F. Supp. 2d at 550 (the
plaintiff sued the distributor of the infringing photographs and
none of the distributees); McClatchey v. Associated Press, No. 305CV-145, 2007 WL 1630261, at *2 (W.D. Pa. June 4, 2007) (same);
Arista Records, 784 F. Supp. 2d at 315 (the plaintiff sued the operators of the system used to infringe and none of the individuals
who used the software to infringe). Thus, in those jurisdictions,
unlike ours, a plaintiff could easily multiply the number of statutory damages awards available by alleging downstream infringements without the obstacle of joining and proving liability against
the alleged downstream infringers.

App. 59
35-37. It offers no guarantee, however, and its reasoning is suspect. For example, the majority posits that
under Federal Rule of Civil Procedure 42(a), a district
court could consolidate separate actions into a single
suit, which would have the effect of limiting the plaintiff to one statutory damages award. But using Rule
42(a) to reduce the number of statutory damages
awards available would seem to run afoul of the Rules
Enabling Act’s command that the Federal Rules “shall
not abridge, enlarge or modify any substantive right.”
28 U.S.C. § 2072(b). In any event, it would be foolish to
think that copyright plaintiffs will not at least try to
bring separate suits, leaving our circuit’s already overburdened district court judges to figure out whether
there is a way to work around the majority’s mess.
Finally, the majority expresses concern that permitting a plaintiff to recover multiple statutory damages awards in these circumstances would make a
defendant like Manna liable for many times its actual
profits. Majority Op. at 34. But “[e]ven for uninjurious
and unprofitable invasions of copyright the court may,
if it deems it just, impose a liability within statutory
limits to sanction and vindicate the statutory policy.” F.
W. Woolworth Co. v. Contemporary Arts, Inc., 344 U.S.
228, 233 (1952); see also New Form, Inc. v. Tekila Films,
Inc., 357 F. App’x 10, 12 (9th Cir. 2009) (rejecting the
“incorrect premise that statutory damages must be
tethered to actual damages”). Because a plaintiff need
not prove any actual damages to obtain a statutory
damages award, and may recover statutory damages
even for unprofitable infringement, it is well settled

App. 60
that the defendant’s actual profits do not control a
plaintiff ’s ability to recover statutory damages under
§ 504(c)(1).9 The majority has substituted its own policy preferences for those of Congress.
*

*

*

The district court did not issue a judgment or any
other order concluding that any defendant was jointly
and severally liable for the infringing acts of any other,
so it’s unclear what the majority thinks it’s reversing
on its novel theory that where one infringer is jointly
and severally liable with every other defendant, but
the remaining defendants are not with each other, only
one award of statutory damages is available under
§ 504(c)(1). Moreover, the majority’s opinion conflicts
with our court’s binding precedent rejecting the very
theory it adopts and is itself an atextual reading of the
statute. I therefore respectfully dissent on the question
of statutory damages.

9

To the extent the majority is concerned that “an infringer
[w]ould face greater liability for participating in an infringement
activity in a less culpable manner,” Majority Op. at 33, the Copyright Act already accounts for differing levels of culpability by distinguishing willful from innocent infringers and limiting the
amount of statutory damages that can be imposed against innocent infringers, see 17 U.S.C. § 504(c)(1), (c)(2).

App. 61
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
DESIRE, LLC,

)
)
Plaintiff,
)
v.
)
MANNA TEXTILES, INC., )
)
et al.,
)
Defendants. )
)
)
)

Case No.: CV 16-4295
DMG (JEMx)
ORDER RE
PLAINTIFF’S
ENTITLEMENT
TO SEPARATE
STATUTORY
DAMAGES AWARDS
[84, 88]
(Filed Sep. 22, 2017)

I.
PROCEDURAL BACKGROUND
At the summary judgment stage, Defendants
Manna Textiles, Inc. (“Manna”); A.B.N., Inc. (“ABN”);
Top Fashion of New York, Inc. (“Top Fashion”); Burlington Coat Factory Direct Corp. (“Burlington”); Ashley
Stewart, Inc. (“Ashley Stewart”); Pride & Joys, Inc.
(“Pride & Joys”); and 618 Main Clothing Corp. (“618
Main” and, collectively, “Defendants”)1 sought an order stating that Desire could not recover multiple
statutory damages awards for each of the Defendants’
distinct acts of alleged infringement, and that, instead,
1

Consistent with its earlier orders, the Court refers to Burlington, Ashley Stewart, and 618 Main, collectively, as the “Retail
Defendants,” and to ABN, Top Fashion, and Pride & Joys, collectively, as the “Manufacturer Defendants.”

App. 62
only one award was available due to Defendants’ joint
and several liability. [Doc. # 47.] In Opposition, Plaintiff Desire, LLC (“Desire”) argued that each of the Defendants “face[ ] different potential liability” because
they are not “liable for the same conduct and the same
damages.” [Doc. # 54.] The Court denied Defendants’
motion, concluding that, based on the parties’ limited
briefing on the subject and the evidence presented, the
availability of three statutory damages awards—one
for each chain of distribution (from Manna to the
eventual Retail Defendant)—best integrated the Ninth
Circuit’s chain of distribution theory of joint and several liability in the context of copyright infringement,
longstanding principles of joint and several liability relating to harm causation, and the Copyright Act’s plain
language. [Doc. # 81 (“MSJ Order”).]
At the Final Pretrial Conference, Desire requested
the opportunity to submit supplemental briefing on the
issue of joint and several liability for statutory damages in light of the fact that the Court’s denial of summary judgment on the issue did not fully resolve the
legal question and the need to resolve this issue in
advance of the preparation of the verdict form. [Doc.
# 82.] The Court agreed, and the parties have timely
submitted their supplemental briefs. Id.; Doc. ## 84
(“Desire Suppl. Br.”), 88 (“Defendants Suppl. Br.”).

App. 63
II.
DISCUSSION
The Copyright Act permits a copyright owner to
elect to recover statutory damages rather than actual
damages and profits “for all infringements involved in
the action, with respect to any one work, for which any
one infringer is liable individually, or for which any two
or more infringers are liable jointly and severally.” 17
U.S.C. § 504(c)(1). “The number of awards available under this provision depends not on the number of separate infringements, but rather on (1) the number of
individual ‘works’ infringed and (2) the number of separate infringers. Friedman v. Live Nation Merchandise,
Inc. (“Friedman II”), 833 F.3d 1180, 1189–90 (9th Cir.
2016). As explained in Columbia Pictures Television v.
Krypton Broadcasting of Birmingham, Inc.,
when statutory damages are assessed against
one defendant or a group of defendants held
to be jointly and severally liable, each work infringed may form the basis of only one award,
regardless of the number of separate infringements of that work. However, “where separate
infringements for which two or more defendants are not jointly liable are joined in the
same action, separate awards of statutory
damages would be appropriate.”
106 F.3d 284, 294 (9th Cir. 1997), rev’d on other
grounds, Feltner v. Columbia Pictures Tel., Inc., 523
U.S. 340 (1998). Here, there are seven infringers and a
single work infringed, and, as the Court explains below, some instances of infringement for which two or

App. 64
more defendants are jointly and severally liable, and
others for which two or more defendants are not jointly
liable.2
The parties’ supplemental briefing does not alter
the Court’s understanding of the application of joint
and several liability in the context of copyright infringement. As the Court explained in the MSJ Order,
joint and several liability is “[a] creature of tort law”
that “applies when there has been a judgment against
multiple defendants.” Honeycutt v. United States, 137
S. Ct. 1626, 1631 (2017) (quoting McDermott, Inc. v.
AmClyde, 511 U.S. 202, 220–21 (1994)). More specifically, “[i]f two or more defendants jointly cause harm,
each defendant is liable for the entire amount of the
harm; provided, however, that the plaintiff recover [sic]
only once for the full amount.” Id.; accord DKN Holdings LLC v. Faerber, 61 Cal. 4th 813, 816 n.7 (2015)
(“The general rule followed in America is that the liability of two or more persons who jointly engage in the
commission of a tort is joint and several. . . .” (quoting
Grundel v. Union Iron Works, 127 Cal. 438, 440–41
(1900))); see also Restatement (Third) of Torts § 10 cmt.
a (1999) (“Joint and several liability has also been justified on the ground that each defendant’s tortious conduct is a legal cause of the entirety of the plaintiff ’s
damages.”); Karl Oakes, Corpus Juris Secundum § 104
(2007) (“Where two or more persons join in or contribute to a single copyright infringement, they are all

2

In undertaking the statutory damages analysis, the Court
assumes arguendo that Defendants infringed Desire’s copyright.

App. 65
jointly and severally liable for actual damages and
statutory damages.”).3
Additionally, as explained in the MSJ Order, any
member of the distribution chain of infringing products may be subject to joint and several liability in the
copyright infringement context. See Adobe Sys. Inc. v.
Blue Source Grp., Inc., 125 F. Supp. 3d 945, 973–74
(N.D. Cal. 2015) (collecting cases); see also Stabilisierungsfonds Fur Wein v. Kaiser Stuhl Wine Distrib. Pty.
Ltd., 647 F.2d 200, 207 (D.C. Cir. 1981) (“Courts have
long held that in patent, trademark, literary property,
and copyright infringement cases, any member of the
distribution chain can be sued as an alleged joint tortfeasor. . . . [J]oint tortfeasors are jointly and severally
liable. . . .”). For example, in Adobe, the plaintiff computer software maker sued, as relevant here, two software companies, Blue Source and SoftwareMedia, who,
without authorization, sold and distributed the plaintiff ’s software. 125 F. Supp. 3d at 955–56. The operative pleading alleged that SoftwareMedia purchased
the offending software from Blue Source. Id. at 955–56,
971. After determining that the plaintiff sufficiently alleged a cause of action for copyright infringement, the
3

This explanation of joint and several liability is consistent
with, but somewhat broader than, the definitions Desire presents
in its supplemental briefing. See Desire Suppl. Br. at 3–4 & nn.2–4.
As Defendants point out, however, Desire’s proffered definitions
come from three online dictionaries, unaccompanied by any supporting case law or other indication that these definitions have
been either ratified or applied in the Ninth Circuit or California
state courts. This Court thus follows formulations of joint and
several liability as provided by binding case authority.

App. 66
District Court found that the plaintiff had also sufficiently alleged a theory of joint tortfeasors and joint
and several liability based on Blue Source’s unauthorized sale and distribution of the infringing software to
SoftwareMedia. Id. at 970–71, 973–74.
In sum, then, joint and several liability is properly
found when two or more parties’ actions cause the
plaintiff ’s harm, and a court may impose joint and several liability where the parties’ participation in the
chain of distribution makes them joint tortfeasors in
the commission of the harm. Here, the harm is copyright infringement.
Desire advances a narrower interpretation of joint
and several liability in the context of copyright infringement, focusing on the distinct “events” or “acts”
of infringement by each Defendant but ignoring the
interplay between actors. See Desire Suppl. Br. at 4–5.
For example, says Desire, 618 Main’s display and sale
of the infringing garments to consumers is separate
and apart from Pride & Joys’ creation and sale of the
infringing garments to 618 Main, and both constitute
individual infringements in which there was no joint
action. Id. Desire argues further that because Manna
“had no control or agency over what was done with
the infringing” work after it left Manna’s possession,
Manna did not jointly engage in the commission of the
tort of copyright infringement by the Manufacturer
and Retail Defendants. Id. at 5.
This conceptualization of joint and several liability is helpful to the Court in part. Each “act” of

App. 67
infringement in this case must be evaluated, at least
initially, on its own in order for the Court to determine
when joint and several liability is appropriate for purposes of determining the number of statutory damages
available. Further, Desire’s theory of liability explains
why downstream infringers should not be jointly and
severally liable for the actions of upstream infringers.
Based on the evidence before the Court at the summary judgment stage, it cannot reasonably be said
that 618 Main, for example, could have foreseen or
otherwise caused Pride & Joys’ infringing conduct
when Pride & Joys’ conduct preceded 618 Main’s. Accordingly, 618 Main should not be jointly and severally
liable for Pride & Joys’ sale and distribution of the infringing garments. Or, as Desire posits, if 618 Main
“used the infringing fabric to cover the walls in its private offices, it would face no liability,” whereas the preceding infringers upstream in the chain of distribution
would be responsible for their respective roles in the
infringement. Desire Suppl. Br. at 5.4 Thus, with
4

As Defendants argue, Desire cherry picks favorable language from case law without providing the full context. For example, advancing the theory that that Defendants engaged in
discrete sales “and are thus ‘severally liable for the defendant’s
own illegal profits,’ ” Desire quotes from the Ninth Circuit’s decision in Frank Music Corp. v. Metro-Goldwyn-Mayer, Inc., 772
F.2d 505, 519 (9th Cir. 1985). Desire Suppl. Br. at 5. But Frank
explains that rule of several liability with regard to a defendant’s
profits in contrast to another rule—wherein “[w]hen a copyright
is infringed, all infringers are jointly and severally liable for
plaintiffs’ actual damages”—and amidst a review of the District
Court’s damages award that appeared to have erroneously imposed joint and several liability for the defendants’ individual
profits. See 772 F.2d at 519. Moreover, while the Frank Court

App. 68
respect to those acts of infringement (Pride & Joys’ sale
and distribution, and 618 Main’s separate public display and sale to consumers), separate awards of statutory damages are appropriate, as will be discussed
further below. See Columbia Pictures, 106 F.3d at 294.
But Desire’s control and agency theory, on the
whole, is premised on a more demanding joint liability
standard than governing law requires. See Gackstetter
v. Frawley, 135 Cal. App. 4th 1257, 1272–73 (2006)
(“Joint tortfeasors’ have been referred to as ‘two or
more persons who are liable to the same person for the
same harm. It is not necessary that they act in concert
or in pursuance of a common design. . . .”); 5 B.E.
Witkin, Summary of California Law, Torts § 51 (10th
ed. 2005) (Restatement leaves to local law when tortfeasors should be held jointly and severally liable);
Restatement (Third) of Torts § 10 (“When, under applicable law, some persons are jointly and severally liable to an injured person. . . .” (emphasis added)).
Further, Desire’s theory of joint and several liability in
this case fails to account for the upstream infringers’
responsibility for the downstream infringers’ misconduct.
Based on the evidence presented at summary
judgment, it appears that the upstream infringers
instructed the District Court to consider on remand how closely
together the defendants worked in the production of the infringing musical, that inquiry was relevant not to a finding of joint
liability in the infringement, but to the determination of the apportionment of profits in light of “[t]he rule of several liability for
profits . . . where defendants do not act as partners.” Id.

App. 69
here—Manna and, at times, the Manufacturer Defendants—contributed to the downstream infringers’—
the Retail Defendants and, at times, the Manufacturer
Defendants—infringing conduct, and therefore jointly
caused Desire’s harm. When Manna created the Accused Design and distributed it to the Manufacturer
Defendants, the downstream sale of offending garments bearing the Accused Design was foreseeable, if
not certain and intended. In turn, when the Manufacturer Defendants sold and distributed those offending
garments to the Retail Defendants, the public display
and sale of those garments to consumers by the Retail
Defendants was similarly foreseeable, if not intended.
Further, but for Manna’s creation and distribution of
the Accused Design and the Manufacturing Defendants’
subsequent sale and distribution of the garments to
the Retail Defendants, the Retail Defendants would
not have infringed on Desire’s copyright interests
through the public display and sale of those garments.
Accordingly, where an upstream defendant causes,
whether directly or indirectly, a downstream defendant’s infringement, the upstream defendant is a joint
tortfeasor in, and therefore jointly and severally liable
for, the plaintiff ’s harm caused by the downstream
defendant’s conduct. See Columbia Pictures, 106 F.3d
at 294 (“Because the stations [which broadcast television shows without authorization] were not jointly
and severally liable with each other, [upstream station owner defendant] Feltner’s liability vis-a-vis the
[downstream] stations merely renders him jointly and
severally liable for each station’s infringements. . . .”

App. 70
(emphasis added)). Even if Manna did not control or
design the Manufacturer and Retail Defendants’ specific conduct with respect to the infringing work, it does
not negate Manna’s participation in the downstream
infringement, and the same goes for the Manufacturer
Defendants who may not have controlled or designed
the Retail Defendants’ treatment of the infringing garments. Conversely, where a downstream infringer’s
conduct is not the legal cause of the upstream defendant’s infringement, the downstream infringer will not
be responsible, jointly and severally, for the upstream
defendant’s wrongdoing.5
This Court’s understanding of joint and several liability in the copyright infringement context tracks
the Ninth Circuit’s rulings on the issue. For example,
as cited above, the Ninth Circuit in Columbia Pictures
affirmed the District Court’s finding of joint and several liability as to the defendant television station
owner for the downstream stations’ infringing conduct
by virtue of his contribution to their conduct. 106 F.3d
at 294 n.7. Similarly, the Ninth Circuit in Friedman II,
in reliance on Columbia Pictures, approved of the defendant music merchandising company’s theoretical
liability for the infringement of all downstream retailers, so long as those retailers were named defendants.
833 F.3d at 1191–92. Although Desire presents a
5

The Court recognizes that in this case, Top Fashion may
theoretically be jointly liable for Manna’s conduct in creating the
Accused Design and selling the infringing fabric to it by virtue of
Top Fashion’s approaching Manna with the Subject Design inhand and requesting that Manna create a similar textile print.
This will be discussed in more detail below.

App. 71
rationale for the Columbia Pictures and Friedman II
reasoning (itself based on the infamous Nimmer hypothetical) that relates to an underlying, assumed “operational or industry-specific knowledge that is unique
to film distribution agreements,” the Ninth Circuit
never discussed the nature of such “unique” distribution agreements, let alone expressed its reliance on
such facts, and no court to date has explained away the
Columbia Pictures holding or Nimmer hypothetical on
that basis. See Desire Suppl. Br. at 5–6 & n.5 (discussing the joint venture relationship between distributor
and theater, in which parties share profits and are
subject to reciprocal contractual obligations).6

6

Similarly, Desire asserts that because none of the Defendants here had a financial interest in the infringing product beyond the sale of that product to the downstream infringer, there
should be no joint and several liability imposed for infringement
purposes. Desire Suppl. Br. at 7. In support, Desire states that
such an extended financial interest is “a central consideration in
determining whether liability is joint and several.” Id. Such a financial interest is only considered when deciding whether to
permit a plaintiff to collect one defendant’s profits from two defendants’ jointly under a theory of damages based on profits. See
17 U.S.C. § 504(b) (“The copyright owner is entitled to recover the
actual damages suffered by him or her as a result of the infringement, and any profits of the infringer that are attributable to the
infringement and are not taken into account in computing the
actual damages.”); Frank, 772 F.2d at 519 (comparing Belford,
Clarke & Co. v. Scribner, 144 U.S. 488, 507–08 (1892), which permitted two defendants that were “practically partners” in the
publication of the infringing book to be held jointly liable for only
one defendant’s profits, with Sammons v. Colonial Press, 126 F.2d
341, 346-47 (1st Cir. 1942), which disallowed joint liability on the
defendant printer for the defendant publisher’s profits because
the printer was an independent contractor that manufactured the

App. 72
Notably, too, the Adobe Court found, albeit at the
pleading stage, that the buyer—seller relationship alleged between Blue Source and SoftwareMedia (and the
sales conduct underlying that relationship) was sufficient to deem Blue Source a joint tortfeasor, who would
be jointly and severally liable for the co-defendant’s infringement of the plaintiff ’s copyright interests in its
software. See 125 F. Supp. 3d at 955–56, 973–74. Yet,
the District Court there never mentioned or discussed
any underlying reciprocal contracts between the two
defendants. See id. Thus, as the Court stated in the
MSJ Order, the discussion of joint and several liability
in this case is also consistent with this Circuit’s application of joint and several liability to any party in an
infringing chain of distribution.
In determining the “group of defendants held to be
jointly and severally liable” for purposes of statutory
damages under section 504(c)(1) here, the Court maintains its previous understanding of joint and several
liability with regard to the three chains of distribution.
Columbia Pictures, 106 F.3d at 294. The Court further
clarifies, however, that each infringer in the distribution chain is not jointly and severally liable for every
other infringer’s conduct in that chain. Accordingly,
because Desire has presented the Court with a case

infringing book for a fixed price). Here, the issue is not the amount
of damages or the disgorgement of profits, but rather whether to
impose joint and several liability for infringement—a wholly distinct inquiry that arises from an altogether separate statutory
provision.

App. 73
“where separate infringements” have occurred “for
which two or more defendants” that “are joined in the
same action” “are not jointly liable,” “separate awards
of statutory damages [are] appropriate.” Id. Assuming
that the evidence presented at trial is the same as that
presented at the summary judgment stage, the following statutory damages awards are theoretically available:
1.

One award for Manna’s copying of the Subject
Design and sale of the fabric bearing the Accused Design to Top Fashion, for which
Manna and Top Fashion are jointly and severally liable (because Top Fashion asked Manna
to create the infringing design and sell it the
infringing fabric);

2.

One award for Manna’s sales and distributions of the infringing fabric to ABN and Pride
& Joys, for which Manna is liable individually;

3.

One award for Top Fashion’s sale of the infringing garments to Ashley Stewart, for
which Manna and Top Fashion are jointly and
severally liable;

4.

One award for Ashley Stewart’s public display
and sales of the infringing garments to consumers, for which Manna, Top Fashion, and
Ashley Stewart are jointly and severally liable;

App. 74
5.

One award for ABN’s sale of the infringing
garments to Burlington, for which Manna and
ABN are jointly and severally liable;

6.

One award for Burlington’s public display and
sales of the infringing garments to consumers,
for which Manna, ABN, and Burlington are
jointly and severally liable;

7.

One award for Pride & Joys’ sale of the infringing garments to 618 Main, for which
Manna and Pride & Joys are jointly and severally liable; and

8.

One award for 618 Main’s public display and
sales of the infringing garments to consumers,
for which Manna, Pride & Joys, and 618 Main
are jointly and severally liable.

Although the Court concludes, based on the evidence presented at the summary judgment stage, that
there is at least a triable issue as to Manna’s and Top
Fashion’s joint

App. 75

App. 76
liability for the copying and sale of the infringing garment to Top Fashion, the Court recognizes that this is
a theory of liability never pursued by Desire. It is
therefore waived. Under these circumstances, permitting the question of whether, based on agency principles, Top Fashion is jointly liable with Manna for such
conduct, to go to the jury would prejudice Defendants.
Accordingly, the statutory damages award numbered
“1” above will not be available at trial.7 Instead, assuming the jury rules in favor of Desire, Manna will be
held individually liable for its copying and sale of the
infringing garments to all three Manufacturer Defendants. A revised schematic of the statutory damages
awards appears below:
Although the Court has included the statutory
damages award numbered “5” in the schematic for purposes of illustration, the Court recognizes that, since
the parties’ Trial Briefs were submitted, Desire has
settled its infringement claim against Burlington.
[Doc. # 89.] Thus, assuming that the settling parties
7

Desire would likely respond that it never pursued any theory of joint and several liability as to any of the Defendants such
that the imposition of any joint liability is prejudicial. But Desire’s supplemental brief argues that there should be seven statutory damages awards, not because it did not pursue joint
liability and the imposition of joint liability is prejudicial, but because joint and several liability does not exist, period. See Desire
Suppl. Br. at 3, 4–5. As explained herein, Desire’s assertion is
incorrect. Moreover, Desire has sought seven statutory damages
awards since the statutory damages issue was raised at summary
judgment such that Defendants have been on notice of the potential availability of seven—as opposed to eight—statutory damages awards.

App. 77
stipulate to this on the record, the statutory damages
award for Burlington’s public display and sale of the
infringing garments, numbered “5” in the schematic
above, will not be available at trial.
II.
CONCLUSION
In light of the foregoing, provided that the jury
rules in favor of Desire and against all Defendants,
seven statutory damages awards are available with
joint and several liability imposed consistent with this
Order. The jury will be tasked with determining the
value (within the Copyright Act’s statutory damages
parameters) of each unit of infringement, and the
Court will then apply joint and several liability as discussed above to allocate damages in accordance with
section 504(c)(1).8
IT IS SO ORDERED.

8

Finally, although Defendants’ assertion that only one statutory damages award is available and the parties’ dispute regarding the meaning of section 504(c)(1) have caused the Court to
undertake this joint and several liability analysis to determine
the number of statutory damages awards available in this case,
the Court recognizes that Desire did not seek joint and several
liability against Defendants. Thus, Desire need not recover from
Defendants jointly and severally in the event that Defendants are
found liable for copyright infringement.

App. 78
DATED: September 22, 2017
/s/ Dolly M. Gee
DOLLY M. GEE
UNITED STATES
DISTRICT JUDGE

App. 79
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
DESIRE, LLC,

)
)
Plaintiff,
)
v.
)
MANNA TEXTILES, INC., )
)
et al.,
)
Defendants. )
)

Case No.: CV 16-4295
DMG (JEMx)
VERDICT FORM
[REDACTED AS
TO THE FOREPERSON’S NAME]
(Filed Sep. 28, 2017)

We, the Jury, answer the questions submitted to us
in regard to Plaintiff Desire, LLC’s claims in this action
as follows:
Question #1. Do you find that any of the Defendants infringed Plaintiff ’s copyright in the artwork
at issue? (Check “Yes” or “No” as to each Defendant
listed.)
a. Manna Textiles, Inc.

Yes

🗸

No

b. A.B.N., Inc.

Yes

🗸

No

c. Top Fashion of N.Y., Inc. Yes

🗸

No

d. Pride & Joys, Inc.

Yes

🗸

No

e. 618 Main Clothing Corp. Yes

🗸

No

If you answered “No” as to every Defendant in response to Question # 1, sign and date this form. If you
answered “Yes” as to any Defendant in response to
Question # 1, proceed to Question # 2.

App. 80
Question # 2. For each Defendant as to which
you answered “Yes” in response to Question # 1, did
any Defendant prove by a preponderance of the evidence that its infringement was innocent? (Check “Yes”
or “No” as to each Defendant listed.)
a. Manna Textiles, Inc.

Yes

No

🗸

b. A.B.N., Inc.

Yes

No

🗸

c. Top Fashion of N.Y., Inc. Yes

No

🗸

Yes

🗸

No

e. 618 Main Clothing Corp. Yes

🗸

No

d. Pride & Joys, Inc.

Question # 3. For each of the following Defendants as to which you answered “No” in response to
Question # 2, do you find the Defendant infringed willfully? (Check “Yes” or “No” as to each Defendant listed.)
a. Manna Textiles, Inc.

Yes

🗸

No

b. A.B.N., Inc.

Yes

🗸

No

c. Top Fashion of N.Y., Inc. Yes

🗸

No

Question # 4. For each Defendant as to which
you answered “Yes” in response to Question # 1, state
the amount of statutory damages you award to Plaintiff against that Defendant:
a. Manna Textiles, Inc.

$ 150,000

b. A.B.N., Inc.

$ 150,000

c. Top Fashion of N.Y., Inc. $ 150,000
d. Pride & Joys, Inc.

$

20,000

e. 618 Main Clothing Corp. $

10,000

App. 81

Date:

9/28/17

App. 82

JS - 6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
DESIRE, LLC,

CASE NUMBER

PLAINTIFF, CV 16-4295-DMG (JEMx)
v.
MANNA TEXTILES, INC.,
et al.,
DEFENDANTS.

JUDGMENT ON
THE VERDICT FOR
THE PLAINTIFF
(Filed Sep. 29, 2017)

This action came on for jury trial, the Honorable
Dolly M. Gee District Judge, presiding, and the issues
having been duly tried and the jury having duly rendered its verdict,
IT IS ORDERED AND ADJUDGED that Plaintiff
Desire, LLC recover of Defendants:
Manna Textiles, Inc.

$150,000

A.B.N., Inc.

$150,000

Top Fashion of N.Y., Inc.

$150,000

Pride & Joys, Inc.

$20,000

618 Main Clothing Corp.

$10,000

App. 83
Dated:
September 29, 2017

Clerk, U. S. District Court
By

/s/
Kane Tien, Deputy Clerk

App. 84
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DESIRE, LLC, a California
limited liability company,
Plaintiff-Appellee,
v.
MANNA TEXTILES, INC.,
a New York corporation;
et al.,

No. 17-56641
D.C. No. 2:16-cv04295-DMG-JEM
Central District of
California, Los Angeles
ORDER
(Filed Mar. 18, 2021)

Defendants-Appellants.
Before: WARDLAW and BENNETT, Circuit Judges,
and SESSIONS,* District Judge.
Appellee Desire, LLC, filed a petition for panel
rehearing and for rehearing en banc. Dkt. No. 32. A
majority of the panel has voted to deny the petition for
panel rehearing. Judge Wardlaw voted to grant the petition for panel rehearing.
Judge Wardlaw has voted to grant the petition for
rehearing en banc. Judge Bennett has voted to deny
the petition for rehearing en banc, and Judge Sessions
has so recommended.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote

* The Honorable William K. Sessions III, United States District Judge for the District of Vermont, sitting by designation.

App. 85
on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
The petition for panel rehearing and rehearing en
banc is DENIED.

